<html>
<title> - SELF-DRIVING VEHICLE LEGISLATION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                    SELF-DRIVING VEHICLE LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

        SUBCOMMITTEE ON DIGITAL COMMERCE AND CONSUMER PROTECTION

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 27, 2017

                               __________

                           Serial No. 115-42
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov


                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
32-518 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bbdccbd4fbd8cec8cfd3ded7cb95d8d4d695">[email&#160;protected]</a> 


                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
TIM MURPHY, Pennsylvania             ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
MARSHA BLACKBURN, Tennessee          DIANA DeGETTE, Colorado
STEVE SCALISE, Louisiana             MICHAEL F. DOYLE, Pennsylvania
ROBERT E. LATTA, Ohio                JANICE D. SCHAKOWSKY, Illinois
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida            YVETTE D. CLARKE, New York
BILL JOHNSON, Ohio                   DAVID LOEBSACK, Iowa
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
LARRY BUCSHON, Indiana               JOSEPH P. KENNEDY, III, 
BILL FLORES, Texas                   Massachusetts
SUSAN W. BROOKS, Indiana             TONY CARDENAS, California
MARKWAYNE MULLIN, Oklahoma           RAUL RUIZ, California
RICHARD HUDSON, North Carolina       SCOTT H. PETERS, California
CHRIS COLLINS, New York              DEBBIE DINGELL, Michigan
KEVIN CRAMER, North Dakota
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia

                                 7_____

        Subcommittee on Digital Commerce and Consumer Protection

                         ROBERT E. LATTA, Ohio
                                 Chairman
GREGG HARPER, Mississippi            JANICE D. SCHAKOWSKY, Illinois
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BEN RAY LUJAN, New Mexico
MICHAEL C. BURGESS, Texas            YVETTE D. CLARKE, New York
LEONARD LANCE, New Jersey            TONY CARDENAS, California
BRETT GUTHRIE, Kentucky              DEBBIE DINGELL, Michigan
DAVID B. McKINLEY, West Virgina      DORIS O. MATSUI, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
GUS M. BILIRAKIS, Florida            JOSEPH P. KENNEDY, III, 
LARRY BUCSHON, Indiana                   Massachusetts
MARKWAYNE MULLIN, Oklahoma           GENE GREEN, Texas
MIMI WALTERS, California             FRANK PALLONE, Jr., New Jersey (ex 
RYAN A. COSTELLO, Pennsylvania           officio)
GREG WALDEN, Oregon (ex officio)

                                  (ii)
                             
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Robert E. Latta, a Representative in Congress from the State 
  of Ohio, opening statement.....................................     1
    Prepared statement...........................................     3
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................     4
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     6
    Prepared statement...........................................     7
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     9
    Prepared statement...........................................    10

                               Witnesses

Mitch Bainwol, President and Chief Executive Officer, Alliance of 
  Automobile Manufacturers.......................................    12
    Prepared statement...........................................    15
David L. Strickland, Counsel, Self-Driving Coalition for Safer 
  Streets, and Partner, Venable LLP..............................    40
    Prepared statement...........................................    42
William C. Wallace, Policy Analyst, Consumers Union..............    45
    Prepared statement...........................................    47
Alan B. Morrison, Lerner Family Associate Dean for Public 
  Interest and Public Service Law, George Washington University 
  Law School.....................................................    64
    Prepared statement...........................................    66
Tim Day, Senior Vice President, Chamber Technology Engagement 
  Center, U.S. Chamber of Commerce...............................    76
    Prepared statement...........................................    78
John Bozzella, President and Chief Executive Officer, Association 
  of Global Automakers...........................................    90
    Prepared statement...........................................    92

                           Submitted Material

Discussion Draft, the Let NHTSA Enforce Autonomous Vehicle 
  Driving Regulations (LEAD'R) Act...............................   135
Discussion Draft, the Practical Automated Vehicle Exemptions Act.   139
Discussion Draft, the Renewing Opportunities for Automated 
  Vehicle Development Act........................................   141
Discussion Draft, the Expanding Exemptions to Enable More Public 
  Trust Act......................................................   143
Discussion Draft, the Maximizing Opportunities for Research and 
  the Enhancement of Automated Vehicles Act......................   145
Discussion Draft, the Increasing Information and Notification to 
  Foster Openness Regarding Automated Vehicle Matters to States 
  Act............................................................   149
Discussion Draft, the Disability Mobility Advisory Council Act...   151
Discussion Draft, the Improving Mobility Access for Underserved 
  Populations and Senior Citizens Advisory Council Act...........   155
Discussion Draft, the Automated Driving System Cybersecurity 
  Advisory Council...............................................   159
Discussion Draft, the Sharing Automated Vehicle Records with 
  Everyone for Safety Act........................................   164
Discussion Draft, the Highly Automated Vehicle Pre-Market 
  Approval Reduces Opportunities for More People to Travel Safely 
  Act............................................................   168
Discussion Draft, the Guarding Automakers Against Unfair 
  Advantages Reported in Public Documents Act....................   171
Discussion Draft, the Managing Government Efforts to Minimize 
  Autonomous Vehicle Obstruction Act.............................   175
Discussion Draft, the Designating Each Car's Automation Level Act   178
Letter of June 27, 2017, from Marc Scribner, Senior Fellow, 
  Competitive Enterprise Institute, to subcommittee members, 
  submitted by Mr. Latta.........................................   180
Letter of June 26, 2017, from Gary Shapiro, President and Chief 
  Executive Officer, Consumer Technology Association, to Mr. 
  Latta, submitted by Mr. Latta..................................   183
Letter of June 26, 2017, from Nathaniel F. Wienecke, Senior Vice 
  President, Federal Government Relations, Property Casualty 
  Insurers Association of America, to Mr. Latta and Ms. 
  Schakowsky, submitted by Mr. Latta.............................   184
Statement of the Motor & Equipment Manufacturers Association, 
  June 26, 2017, submitted by Mr. Latta..........................   187
Statement of the American Car Rental Association, June 27, 2017, 
  submitted by Mr. Latta.........................................   192
Statement of Advocates for Highway and Auto Safety by Jacqueline 
  S. Gillan, President, June 27, 2017,\1\ submitted by Mr. Latta
Report, ``Self Driving Vehicles: The Threat to Consumers,'' by 
  Harvey Rosenfield, Consumer Watchdog, and Statement by John M. 
  Simpson, Privacy Project Director, Consumer Watchdog, June 27, 
  2017,\1\ submitted by Mr. Latta
Statement of Securing America's Future Energy (SAFE), et al., 
  June 27 2017, submitted by Mr. Latta...........................   196
Letter of June 27, 2017, from Marc Rotenberg, President, et al., 
  Electronic Privacy Information Center, to Mr. Latta and Ms. 
  Schakowsky, submitted by Mr. Latta.............................   200
Statement of the National Association of Mutual Insurance 
  Companies, June 27, 2017, submitted by Mr. Latta...............   204
Report of the Center for American Progress, ``The Impact of 
  Vehicle Automation on Carbon Emissions,'' November 2016, by 
  Myriam Alexander-Kearns, et al.,\1\ submitted by Ms. Schakowsky

----------
\1\ The information has been retained in committee files and also 
  is available at  https://docs.house.gov/Committee/Calendar/
  ByEvent.aspx?EventID=106182.

 
                    SELF-DRIVING VEHICLE LEGISLATION

                              ----------                              


                         TUESDAY, JUNE 27, 2017

                  House of Representatives,
     Subcommittee on Digital Commerce and Consumer 
                                        Protection,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 2123, Rayburn House Office Building, Hon. Robert E. Latta 
(chairman of the subcommittee) presiding.
    Members present: Representatives Latta, Harper, Upton, 
Lance, Guthrie, McKinley, Kinzinger, Bilirakis, Bucshon, 
Mullin, Walters, Costello, Walden (ex officio), Schakowsky, 
Clarke, Cardenas, Dingell, Matsui, Welch, Kennedy, Green, and 
Pallone (ex officio).
    Staff present: Karen Christian, General Counsel; Kelly 
Collins, Staff Assistant; Jordan Davis, Director of Policy and 
External Affairs; Blair Ellis, Press Secretary/Digital 
Coordinator; Melissa Froelich, Counsel, Digital Commerce and 
Consumer Protection; Adam Fromm, Director of Outreach and 
Coalitions; Giulia Giannangeli, Legislative Clerk, Digital 
Commerce and Consumer Protection/Communications and Technology; 
Zach Hunter, Communications Director; Paul Jackson, 
Professional Staff, Digital Commerce and Consumer Protection; 
Bijan Koohmaraie, Counsel, Digital Commerce and Consumer 
Protection; Katie McKeough, Press Assistant; Alex Miller, Video 
Production Aide and Press Assistant; Paul Nagle, Chief Counsel, 
Digital Commerce and Consumer Protection; Mark Ratner, Policy 
Coordinator; Madeline Vey, Policy Coordinator, Digital Commerce 
and Consumer Protection; Hamlin Wade, Special Advisor for 
External Affairs; Everett Winnick, Director of Information 
Technology; Michelle Ash, Minority Chief Counsel, Digital 
Commerce and Consumer Protection; Evan Gilbert, Minority Press 
Assistant; Lisa Goldman, Minority Counsel; Rick Kessler, 
Minority Senior Advisor and Staff Director, Energy and 
Environment; Caroline Paris-Behr, Minority Policy Analyst; Tim 
Robinson, Minority Chief Counsel; and Andrew Souvall, Minority 
Director of Communications, Member Services, and Outreach.
    Mr. Latta. Good morning. I'd like to call the Subcommittee 
on Digital Commerce and Consumer Protection to order, and I now 
recognize myself for 5 minutes for an opening statement.

OPENING STATEMENT OF HON. ROBERT E. LATTA, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Good morning again, and welcome to today's hearing on self-
driving vehicle legislation. Driving is an integral part of 
American life. When you think about who drives, you realize 
that it is pretty much everyone: urban and rural, young and 
old, and everyone and everywhere in between.
    Tragically, however, traffic fatalities are on the rise. 
Last year there were over 40,000 fatalities and over 2 million 
injuries on our Nation's highways.
    Our goal today is to enact the right policies to encourage 
self-driving technologies that can drastically reduce those 
opportunities to address this problem.
    One of the most important pieces is to define the right 
roles for the Federal, State, and local governments. The need 
for this framework was laid out by the Obama administration 
just last year from the front bumper to the back bumper.
    Whether it is a pickup truck, a car, or a van, how the 
vehicle works and its design should be the province of the 
Federal Government as the case has been for more than 50 years.
    The States and localities have an equally important role to 
play in determining insurance requirements, titling cars, 
requiring registration, and setting the rules of the road.
    They get to enact and enforce traffic laws and regulations, 
as well. States will also still be able to offer incentives to 
entities that are early actors in this field if they want to 
encourage testing in their States.
    We simply cannot have cars that stop at State lines. Just 
last week, we celebrated the 61st anniversary of President 
Eisenhower's interstate highway system connecting families and 
people across the country.
    We also want to maintain leadership in the United States. 
Testing is now happening in Europe, Australia, Japan, and 
China. Remaining at the forefront of this innovation ensures 
that we do not delay safety advances while also having the 
opportunity to grow jobs and investment.
    Over the last year, we have seen 80 State bills introduced 
in legislatures across the country. We want to be sure that a 
confusing patchwork does not emerge that would hurt innovation 
and ultimately would be bad for the consumer.
    Earlier this Congress, we held a hearing on smart 
communities and had the opportunity to hear from many different 
communities about the new technologies they were evaluating to 
bring to the benefits in their areas.
    In my home State of Ohio, the city of Columbus won the 
Department of Transportation Smart City Challenge last year and 
is already leveraging new technology to gather information-
approved services for the community.
    Technology to improve everything from safety to sanitation 
to the environment is going through a period of innovation and 
communities are looking for wise investments to improve the 
lives of their citizens.
    This innovation will be a focus of the committee for years 
to come, especially self-driving vehicles. We are at the early 
stages and as the technology advances so will the need for us 
to continue our oversight.
    This first step is to set the broad outline to bring better 
safety and mobility to everyone. We want the Government to work 
actively with industry.
    It is important that we have these discussions in the early 
stages of innovation so that we do not limit the potential 
benefits.
    Our staffs have had constructive conversations with the 
Department of Transportation. They understand that the public 
will need to know an active watchdog is overlooking the 
industry as the administration continues to nominate candidates 
to join the department.
    I look forward to working together to advance these 
important goals. Finally, I always have had an open-door 
policy, and I know we cannot get this right without real-world 
stakeholder input.
    We will move forward under regular order with multiple 
opportunities to improve upon the staff drafts. We will meet 
with anyone--we are participating in bipartisan meetings. 
Pickups, cars, and vans are integral in the American way of 
life.
    When you revolutionize something so important to everyday 
life, you can greatly improve every day--you can always improve 
it.
    This isn't the Government saying that you have to get in a 
self-driving car. This is a Government making sure that the 
industry can innovate in response to our changing lives.
    I am ready to work with my colleagues to bring the safety 
investment and many of the benefits to the American people in 
Ohio and across the country.
    [The prepared statement of Mr. Latta follows:]

               Prepared statement of Hon. Robert E. Latta

    Good morning and welcome to the Digital Commerce and 
Consumer Protection Subcommittee hearing on self-driving 
vehicle legislation. Driving is an integral part of American 
life. When you think about who drives, you realize it is pretty 
much everyone. Urban and rural, young and old, and everyone and 
everywhere in between.
    Tragically, however, traffic fatalities are on the rise. 
Last year there were over 40,000 fatalities and more than 2 
million injuries on our Nation's highways. Our goal today is to 
enact the right policies to encourage self-driving technologies 
that can drastically reduce those numbers. We have a real 
opportunity to address this problem.
    One of the most important pieces is to define the right 
roles for the Federal, State, and local governments. The need 
for this framework was laid out by the Obama administration 
just last year. From the front bumper to the back bumper--
whether it's a pickup truck or a car or a van, how the vehicle 
works and is designed should be the province of the Federal 
Government as has been the case for more than 50 years.
    The States and localities have an equally important role to 
play in determining insurance requirements, titling cars, 
requiring registration and setting the rules of the road. They 
get to enact and enforce traffic laws and regulations as well. 
States will also still be able to offer incentives to entities 
that are early actors in this field if they want to encourage 
testing in their State.
    We simply cannot have cars that stop at State lines. Just 
last week we celebrated the 61st anniversary of President 
Eisenhower's interstate highway system connecting families and 
people across the country.
    We also want to maintain leadership in the United States. 
Testing is happening in Europe, Australia, Japan and China. 
Remaining at the forefront of this innovation ensures that we 
do not delay safety advancements, while also having the 
opportunity to grow jobs and investment. Over the last year, we 
have seen 80 State bills introduced in legislatures across the 
country. We want to be sure that a confusing patchwork does not 
emerge that would hurt innovation and ultimately would be bad 
for the consumer.
    Earlier this Congress, we held a hearing on Smart 
Communities and had the opportunity to hear from many different 
communities about the new technologies they are evaluating to 
bring new benefits into their areas. In my home State of Ohio, 
the city of Columbus won the Department of Transportation's 
Smart City Challenge last year and is already leveraging new 
technology to gather information to improve services for the 
community. Technology to improve everything from safety to 
sanitation to the environment is going through a period of 
innovation and communities are looking for wise investments to 
improve the lives of their citizens.
    This innovation will be a focus of the committee for years 
to come, especially self-driving vehicles. We are at the early 
stages and as the technology advances so will the need for us 
to continue our oversight. This first step is to set the broad 
outlines to bring better safety and mobility to everyone. We 
want the Government to work actively with industry. It is 
important that we have these discussions in the early stages of 
innovation so that we do not limit the potential benefits.
    Our staff have had constructive conversations with the 
Department of Transportation. They understand that the public 
will need to know an active watchdog is overlooking the 
industry. As the administration continues to nominate 
candidates to join the Department, I look forward to working 
together to advance these important goals.
    Finally, I have always had an open door policy, and I know 
we cannot get this right without real world stakeholder input. 
We will move forward under regular order, with multiple 
opportunities to improve upon the staff drafts. We will meet 
with anyone, and we are participating in bipartisan meetings.
    Pickups, cars, and vans are integral to the American way of 
life. When you revolutionize something so important to everyday 
life you can greatly improve everyday life. This isn't the 
Government saying you have to get in a self-driving car. This 
is Government making sure that industry can innovate in 
response to our changing lives. I'm ready to work with my 
colleagues to bring the safety, investment, and many other 
benefits to the American people in Ohio and everywhere.

    Mr. Latta. And at this time, I would like to yield to the 
vice chairman the remainder of my time.
    Mr. Harper. Thank you, Mr. Chairman, for calling today's 
hearing to continue the subcommittee's important work on self-
driving vehicles.
    Three weeks ago today I actually had my first opportunity 
to ride in a self-driving car with Audi and it was an 
incredible experience and I am very thankful because my wife 
and I are the parents of an adult child with special needs. He 
has Fragile X syndrome and for the disability community one of 
the top problems that you have is transportation.
    So my son works Monday through Friday but my wife is the 
one who has to get him to and from work. He can't go anywhere 
without someone taking him. So this is something that opens up 
all kinds of possibilities. I want to thank each of the 
witnesses for being here.
    This is really a game changer, I believe, for our future 
and for our very special population.
    With that, I yield back.
    Mr. Latta. Well, thank you very much. The gentleman yields 
back, and the Chair now recognizes for an opening statement the 
gentlelady, the ranking member from Illinois.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, Mr. Chairman. I want to first 
acknowledge that in the audience today is Joan Claybrook, who 
is a pioneer and continuing advocate for auto safety, former 
head of NHTSA. I want to welcome you here.
    The 14 bills before us today represent the starting point, 
by no means the ending point, for autonomous vehicle 
legislation.
    My Democratic colleagues and I are ready to discuss the 
majority's ideas, bring our own to the table and work toward a 
single legislative package. I will need to see the additions 
and changes to the bill before I can give my support.
    But it is my hope that we can have a bipartisan negotiation 
and we will see, hopefully, and perhaps put us on a path 
towards safe adoption of autonomous vehicles.
    Safety must be the top priority of AV legislation. 
Autonomous vehicles have the potential to save lives, reducing 
the number of accidents caused by human error.
    We can't take those gains for granted, though. Safety 
improvements depend on rigorous testing, responsible 
deployment, and consumer confidence in the technology.
    While safety is my primary consideration, I just want to 
mention that autonomous vehicles, it is predicted, could 
displace about 4.1 million driving jobs. We just have to think 
about those kinds of transitions and how will putting AVs on 
the road affect congestion and air quality.
    The key elements of the majority's approach are exemptions 
and State preemption. Notably absent from the bills before us 
is any direction for a rulemaking by NHTSA on autonomous 
vehicles.
    Automakers' requests for exemptions, which seems very 
premature to me, acknowledge that autonomous vehicles may not 
comply with existing Federal Motor Vehicle Safety Standards.
    Exemptions are no substitute for updated safety standards 
as more AVs share the road. Exemptions should only be a stopgap 
as NHTSA determines how to update existing laws and what 
additional safety standards might be necessary for AVs. We need 
to figure out a responsible way to keep innovation moving 
forward while ensuring safety at every stage.
    State preemption is not a new concept in auto safety. 
States are currently barred from legislation--from regulating 
design features of cars once NHTSA adopts a Federal standard.
    The Republican draft proposes preemption without any 
requirement for a Federal standard. I believe we need a 
framework for updating Federal standards if we even have that 
conversation about preemption, which I am very skeptical about.
    I also don't want to lose sight of the current potential 
for safety improvements. Some of the automakers pushing hardest 
for AV legislation have been the slowest in making automatic 
emergency braking, for example, which has proven to save 
lives--making them standard in all vehicles.
    The promise of AVs in the future should not cause us to 
ignore the safety gains that we can make right now.
    For example, rear seat reminders to prevent kids from dying 
in hot cars--and so we should be doing things like that right 
now, reminders to imminent hazard authority.
    Safety today, safety tomorrow--this legislation package 
should be a vehicle for both. Our panel today includes industry 
and consumer interest. However, I am concerned that no one from 
NHTSA is here to testify. Agency feedback is critical.
    We need to be mindful of NHTSA's current limitations and 
work to provide the data and resources it needs to be an 
effective consumer watchdog as the technology in our vehicles 
evolve.
    So, Mr. Chairman, I look forward to working with you on 
this legislation. I thank all of our witnesses for being here 
today and now I yield the remainder of my time to Congresswoman 
Dingell.
    Ms. Dingell. I thank you, Madam Schakowsky.
    I want to tell you how important I think this hearing is 
today because this is the new frontier for automobiles. It is 
not about if this technology is going to be developed. It is 
where it is going to be developed and by whom, and I am 
unwilling to yield United States and America not stand at the 
forefront of innovation and technology.
    This is about safety. I could not agree with you more. In 
2015, over 35,000 people died on our roadways and early 
estimates indicate that this could rise to over 40,000 in 2016. 
That is a staggering amount of lives lost to auto accidents.
    NHTSA estimates that 94 percent of highway crashes are due 
to human error. This development of automated vehicles has the 
potential to lower that number very significantly. It is why it 
is so important that we come together around legislation that 
addresses AV deployment, always putting safety first.
    We have an obligation to examine the best ways to safely 
deploy these technologies, given the incredible amount of 
upside that they have.
    But as I have said, it is going to happen. Let's make it 
happen here. Today's hearing is an important step towards 
finding bipartisan consensus on what I hope will be a 
nonpartisan issue.
    The issues on safety do matter. Working with NHTSA does 
matter. I look forward to hearing our testimony from the 
witnesses, and I yield back my overtime.
    Mr. Latta. The gentlelady yields back the balance of her 
time, and the Chair now recognizes for 5 minutes the gentleman 
from Oregon, the chairman of the full committee.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you very much, Chairman Latta, for your 
work on this and your staff's work on this and members on both 
sides of the aisle as we try to find the right legislative 
concepts.
    I want to associate myself with the comments of the 
gentlelady of Michigan because we too join you in wanting to 
make sure that this innovation takes place in America first.
    We have been on the cutting edge. We can continue to be on 
the cutting edge. But the long and the short of it is this new 
technology has a great opportunity to save lives.
    I have seen it first hand in the vehicle my wife now has as 
you look at collision avoidance. We were driving down the 
highway with the cruise control. I was driving down the highway 
with the cruise control on.
    She was napping and a big blackbird flew in front and the 
vehicle automatically braked. She thought I was, like, drowsy 
driving and are you OK, I am fine. It was a bird. Sure, it was 
a bird. It was a bird.
    My point of the story is it saw that and reacted long 
before I would have, and whether it is a bird or a child or 
another vehicle gone astray or something that radar is always 
watching. And the ability to save lives is huge and avoid 
accidents is tremendous and I just believe we are on the cusp 
of something big.
    I think the future generations will look back and say, 
``What a bunch of barbarians. You drove yourselves? And how did 
you text?''
    Well, that is part of the problem, because people are doing 
that today and that is costing us an increasing number of 
lives--35,000 in 2015, maybe 40,000-plus in 2016. Millions of 
people being injured.
    You think of the loss of life, of limb, of property--
everything that is associated with highway fatalities and 
accidents, the ability to move commerce efficiently through 
markets, the reduction in pollution that will bring if you are 
not stalled in a traffic jam because we found a better way to 
run a convoy of trucks through.
    Now, we don't have commercial trucking in this committee. 
We stopped at light trucks. And so these are issues that will 
be addressed in the future.
    But we are on the cusp of something really big here. I am 
really impressed with what I have learned that the automakers 
are engaged in I have seen, as I say, first hand and once you 
have this technology, by the way, you have to reeducate 
yourself when you get in your old vehicle because it doesn't 
beep and bark and the wheel doesn't automatically keep you 
between the lines.
    The question, though, is do you want these cars to stop at 
every State line? Because every State would have a different 
system. We have never done that in America with autos.
    We certainly have common transportation systems with rail, 
I mean, and so we have to find that right balance between the 
States and localities and the Federal Government so that we can 
be the great innovators.
    We can save lives. We can improve the environment with this 
technology. I am just really excited to be on the committee 
that is going to lead the way.
    These are staff discussion drafts. This isn't the end. This 
is the beginning. But it is the beginning of--we have done a 
lot up to this point.
    And so I just want to thank all the members of the 
committee on both sides of the aisle as we work forward to find 
the right balance here.
    With that, I want to yield to my friend from the great 
State of Michigan, former chairman of the committee, who I know 
has played a leading role in getting us to this point in prior 
Congresses.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    First, I want to thank and commend Chairman Latta for 
today's hearing and for the subcommittee's diligent work on 
self-driving vehicles.
    Unfortunately, our Nation has seen a sharp rise in vehicle-
related injuries and deaths over the past few years. In my home 
State of Oregon, traffic fatalities last year were the highest 
they've been since 2003--up 20 percent from the year before.
    While no one is claiming that these numbers can be turned 
around overnight, self-driving vehicle technology has the 
potential to dramatically improve safety on our Nation's 
roadways and that is one of the most important reasons to 
advance the bills we have under consideration today.
    In addition to making our roadways safer, self-driving 
vehicle technology has the potential to offer many other 
benefits.
    I see real benefits in terms of cleaner cars with less of 
an environmental impact. The technological advances spurred by 
self-driving vehicles could ultimately make cars more efficient 
and create a positive shift in the industry.
    Additionally, this technology could help increase 
transportation access to underserved and rural communities and 
reduce traffic congestion in some of our largest cities.
    Self-driving vehicles could greatly improve mobility and 
accessibility, empowering senior citizens and those who suffer 
from disabilities. Simple things most of us take for granted, 
such as going to the doctor or to the nearby grocery store, may 
no longer present insurmountable hurdles for those who 
currently rely on others.
    However, for these benefits to be realized, we must create 
a regulatory framework that provides companies with the 
flexibility to test and generate data that will inform the 
continued development of these vehicles. We must also provide 
appropriate Government oversight to ensure that this is done in 
a safe and secure manner.
    It's also time for Congress to clarify the roles of both 
Federal and State government with regard to this industry. Just 
as Congress ensured uniformity in railroads traversing America, 
we need to make certain that in the future our cars can take us 
from one State to another. For America to remain a leader in 
this field, we need to act.
    I want to thank our distinguished panel for being with us 
today to engage in this extremely important discussion and I 
look forward to working with my colleagues on this critical 
issue.

    Mr. Walden. And so with that, Mr. Chairman, I would yield 
to the gentleman from Michigan, Mr. Upton.
    Mr. Upton. Well, thank you, Mr. Chairman. I just want to 
say forget about the Jetsons. The Jetsons are here, and as all 
of us drive, as we commute back to our districts in our home 
States, for me, Michigan, and we drive hundreds of miles often 
every day that we are there crisscrossing our district, we see 
other drivers. We see other drivers texting and using their 
phones and we see them weave and get sleepy.
    And just going to Detroit yesterday morning, I think I saw 
three trucks that weaved into my lane, trying to cross. This 
morning it took me more than an hour to get 7 miles, because of 
a broken-down car on the 14th Street bridge, another little 
accident on the GW Parkway, and took my best shortcut, that I 
am not going to unveil now so that other people don't use it.
    But, you know, it took me, I think, 20 minutes to get from 
Southwest Airlines to American, just going through that arrival 
part of DCA, trying to get here and avoid some of that.
    This technology is going to save a lot of lives. It is 
going to save a lot of accidents. And years from now, we are 
going to wonder how was it that America let 35,000 people die 
on the roads in 2016, and maybe 40,000 this year.
    We are at the cutting edge and we need to do it right. We 
need to do it in a bipartisan way and I welcome the 
participation of all members of this committee as we try to 
figure this thing out right.
    Because at the end of the day, we are going to save a lot 
of lives. We are going to save a lot of casualty losses, as 
well, and it won't take us an hour to get 7 miles back and 
forth to the office.
    I yield back.
    Mr. Latta. Thank you very much. The gentleman yields back.
    At this time, the Chair recognizes for 5 minutes the 
gentleman from New Jersey, the ranking member of the full 
committee.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    This subcommittee has been reviewing automated vehicle 
technology for some time. As we have heard, there are a number 
of potential benefits both for safety and mobility in the 
deployment of self-driving cars.
    There are also challenges to the deployment such as 
increased cyber security and privacy exposure risks and safety 
issues regarding the interaction between human operated and 
computer operated vehicles.
    We all share the goal of promoting the safest possible 
transportation options. Before us today are 14 separate 
legislative bills that deal with some of the deployment issues.
    I support efforts to help get new technology advances on 
the roads faster. But we must review each bill through our 
safety lens.
    Only if we keep safety first as our mantra can we get these 
initiatives to a place where they are ready to become law.
    Although the minority was not involved in the development 
of these 14 bills, I would like to hold you, Mr. Chairman, to 
your commitment to work to make this a bipartisan effort. My 
goal is crafting a single bipartisan bill that all members can 
support.
    Right now there is some challenges to getting there, 
starting with the leadership vacuum at the National Highway 
Traffic Safety Administration. We should not be moving bills 
out of committee before we hear from the administration about 
how the bills would or could be implemented. And yet, once 
again, we have nobody here today to testify from the 
administration.
    The little we have heard from NHTSA is troubling. The 
president's budget estimate submitted to Congress this spring 
show NHTSA focusing on deregulatory actions that are in direct 
conflict with what Congress required it to do.
    Despite congressional mandates, NHTSA wants to stop 
important safety laws. Inexcusably, the agency is resisting 
critical safety measures designed to ensure blind pedestrians 
know a quiet car is nearby or that parents or grandparents do 
not unintentionally back over their little children.
    While the bills before us deal with a number of industry 
requests such as increases to the current exemption limit or 
how FOIA requests are handled, there are no directions to 
NHTSA.
    NHTSA must have an active role for self-driving cars to be 
successfully deployed on our roads. There also is not direction 
on the issues of cybersecurity, data security, or privacy.
    As we look forward to this new world of self-driving cars, 
we must also ensure that we promote safety which includes 
ensuring NHTSA fulfills its responsibilities both in the 
emerging area as well as with human-driven cars and we can't 
focus on the future at the expense of today.
    As Ranking Member Schakowsky pointed out, a number of 
things can be done right now to make traditional cars safe. 
Most of the auto industry have committed to making automatic 
emergency braking standard in all cars.
    This is a technology that we know promotes safety and some 
automakers have already met that commitment. But others are 
delaying such action. When we know a technology makes people 
safer, it should be put into all cars as quickly as possible.
    In addition, the legislation we discuss now should not be 
the end of the conversation. One recurring theme throughout the 
subcommittee's disrupter series is that technology is advancing 
extremely quickly.
    Today's new technology could be obsolete by next year. 
Self-driving vehicle technology is very much in the development 
phase and it is almost impossible to foresee all the issues 
that may arise.
    So we can't allow the actions we take now to stop us from 
addressing new issues that come up later or from revisiting 
some issues that may change in the future. So in my opinion, 
this is a big moment for us.
    Automated vehicles have the potential to change 
everything--how we move, what communities look like, how we 
interact with each other, for example, and we need to be sure 
that we get this right and that safety is the first priority.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    This subcommittee has been reviewing automated vehicle 
technology for some time. As we have heard, there are a number 
of potential benefits both for safety and mobility in the 
deployment of self-driving cars. There are also challenges to 
their deployment, such as increased cybersecurity and privacy 
exposure risks and safety issues regarding the interaction 
between human-operated and computer-operated vehicles. We all 
share the goal of promoting the safest possible transportation 
options.
    Before us today are 14 separate legislative bills that deal 
with some of the deployment issues. I support efforts that help 
get new technological advances on the roads faster, but we must 
review each bill through our safety lens. Only if we keep 
``safety first'' as our mantra can we get these initiatives to 
a place where they are ready to become law.
    Although the minority was not involved in the development 
of these 14 bills, I would like to hold you, Mr. Chairman, to 
your commitment to work to make this a bipartisan effort. My 
goal is crafting a single bipartisan bill that all members can 
support.
    Right now, there are some challenges to getting there, 
starting with the leadership vacuum at the National Highway 
Traffic Safety Administration. We should not be moving bills 
out of committee before we hear from the administration about 
how the bills would, or could, be implemented. And yet, once 
again, we have nobody here today to testify from the 
administration.
    The little we have heard from NHTSA is troubling. The 
President's Budget Estimates submitted to Congress this spring 
shows NHTSA focusing on deregulatory actions that are in direct 
conflict with what Congress required it to do. Despite 
Congressional mandates, NHTSA wants to stop important safety 
laws. Inexcusably, the agency is resisting critical safety 
measures designed to ensure blind pedestrians know a quiet car 
is nearby or that parents or grandparents do not 
unintentionally back-over their little children.
    While the bills before us deal with a number of industry 
requests, such as increases to the current exemptions limit or 
how FOIA requests are handled, there are no directions to 
NHTSA. NHTSA must have an active role for self-driving cars to 
be successfully deployed on our roads. There also is no 
direction on the issues of cybersecurity, data security, or 
privacy.
    As we look forward to this new world of self-driving cars, 
we must also ensure that we promote safety, which includes 
ensuring NHTSA fulfills its responsibilities both in this 
emerging area as well as with human-driven cars.
    We cannot focus on the future at the expense of today. As 
Ranking Member Schakowsky pointed out, a number of things can 
be done right now to make traditional cars safer. Most of the 
auto industry have committed to making automatic emergency 
braking standard in all cars. This is a technology that we know 
promotes safety, and some automakers have already met that 
commitment, butut others are delaying such action. When we know 
a technology makes people safer, it should be put into all cars 
as quickly as possible.
    In addition, the legislation we discuss now should not be 
the end of the conversation. One recurring theme throughout 
this subcommittee's disruptor series is that technology is 
advancing extremely quickly. Today's new technology could be 
obsolete by next year. Self-driving vehicle technology is very 
much in the development phase, and it's almost impossible to 
foresee all the issues that may arise. So we can't allow the 
actions we take now to stop us from addressing new issues that 
come up later or from revisiting some issues that may change in 
the future.
    This is a big moment for us. Automated vehicles have the 
potential to change everything: how we move, what communities 
look like, how we interact with each other. We need to be sure 
that we get this right and that safety is the first priority.

    Mr. Pallone. And I would like to yield the balance of the 
time to Ms. Matsui.
    Ms. Matsui. Thank you very much, Ranking Member Pallone, 
for yielding me time.
    I would like to echo the ranking member. Without sufficient 
resources, NHTSA won't be able to facilitate the safe and 
speedy adoption of autonomous vehicles.
    We all share the same goal: safely getting this lifesaving 
technology on the road. That is why I am disappointed with the 
process so far on today's legislation.
    We ought to be working together on bipartisan comprehensive 
legislation rather than these piecemeal bills and these bills 
don't do enough.
    California has been a leader in envisioning a pathway for 
the safe testing and deployment of AVs. If we are going to 
contemplate undoing this progress we ought to be focuses on 
giving NHTSA the tools to fill the void.
    Autonomous vehicles will be hear before we know it and I 
stand ready to work with my colleagues on both sides of the 
aisle to put in place a strong framework that includes the 
right regulatory safeguards while allowing flexibility for 
innovation.
    Thank you very much, and I yield back.
    Mr. Latta. The gentlelady yields back the balance of the 
time, and that will now conclude the Member opening statements.
    The Chair would like to remind Members that, pursuant to 
committee rules, all Members' opening statements will be made 
part of the record.
    We want to thank our witnesses for being with us today and 
taking time to testify before the subcommittee. Today's 
witnesses will have the opportunity to give opening statements 
followed by a round of questions from the Members.
    Our panelists for today's hearing will include Mr. Mitch 
Bainwol, the president and CEO at the Alliance of Automobile 
Manufacturers; the Honorable David Strickland, counsel for 
Self-Driving Coalition for Safer Streets and partner at 
Venable; Mr. Will Wallace, policy analyst at Consumers Union; 
Mr. Alan Morrison, Lerner Family Associate Dean for Public 
Interest and Public Service Law at the George Washington 
University of Law School; Mr. Tim Day, senior vice president 
for Chamber Technology Engagement Center at the U.S. Chamber of 
Commerce; and John Bozzella, president and CEO of Global 
Automakers.
    We appreciate you all being here today. We are going to 
start with Mr. Bainwol, and you will be recognized for 5 
minutes, and if you would just pull that mic up close to you 
and turn it on you will see when your time is about ready to 
expire by the lights. But thank you very much for being here, 
and the mic is yours.
    Thank you.

  STATEMENTS OF MITCH BAINWOL, PRESIDENT AND CHIEF EXECUTIVE 
    OFFICER, ALLIANCE OF AUTOMOBILE MANUFACTURERS; DAVID L. 
STRICKLAND, COUNSEL, SELF-DRIVING COALITION FOR SAFER STREETS, 
 AND PARTNER, VENABLE LLP; WILLIAM C. WALLACE, POLICY ANALYST, 
CONSUMERS UNION; ALAN B. MORRISON, LERNER FAMILY ASSOCIATE DEAN 
 FOR PUBLIC INTEREST AND PUBLIC SERVICE LAW, GEORGE WASHINGTON 
UNIVERSITY LAW SCHOOL; TIM DAY, SENIOR VICE PRESIDENT, CHAMBER 
  TECHNOLOGY ENGAGEMENT CENTER, U.S. CHAMBER OF COMMERCE; AND 
     JOHN BOZZELLA, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
                ASSOCIATION OF GLOBAL AUTOMAKERS

                   STATEMENT OF MITCH BAINWOL

    Mr. Bainwol. Thank you, sir.
    Chairman Latta, Ranking Member Schakowsky, Chairman Walden, 
Ranking Member Pallone, Mr. Upton, members of the committee, I 
am Mitch Bainwol from the Alliance of Automobile Manufacturers.
    We represent 12 automakers. We are kind of the umbrella 
group. We have the Detroit Three. We have major manufacturers 
in Europe and three Japanese manufacturers--Toyota, Mazda, and 
Mitsubishi. I am really pleased to be here today. Your 
leadership moving this issue is critical.
    Rather than reading this statement, I am going to run 
through a quick slide deck--11 slides in about 4 and a half 
minutes--so bear with me.
    As we talk about the future--next slide--I think it is 
instructive to go back to 1961. I think it was 61 years ago 
tomorrow that Eisenhower signed the bill that created the 
highway system.
    That, obviously, was a critical assertion of Federal 
leadership. Ike said, our unity as a nation is sustained by 
free communication of thought and by easy transportation of 
people and goods. That was true then and it is true today.
    Ten years later--next slide--LBJ signed the Highway Act and 
really triggered an enormous Federal focus on safety. It was a 
remarkable success.
    Then public works chairman George Fallon said, this bill 
continues the policy of meaningful cooperation between the 
States and the Federal Government on highway matters.
    It was a firm step forward in the effort to save lives, 
talking about a theme of Federal and State roles.
    Next slide. This is really kind of the critical data slide. 
This shows 1949 to 2016 the fatalities on the roads. The gray 
line, which is faint, is the absolute number of fatalities and 
you can see it reached just over 50,000 in the '70s and is now 
roughly about 40,000.
    The green line is the line really to focus on. That is 
fatalities by VMT, vehicle miles travelled, and what you see is 
a phenomenal success story.
    We are not without concern about the task that remains. The 
last 2 years there is been a tick-up, and that is concerning. 
But the trend line over the 70-year period really is a powerful 
one.
    Next slide. That was the basis of the recognition by CDC 
that motor vehicle safety was one of the 10 great public health 
achievements of the century.
    So this is, I think, a statement--go to the next slide--
that the Safety Act fundamentally works and the magic or the 
genius of the Safety Act is this scale and the scale--what we 
are trying to do is optimize the capacity to innovate and we do 
that with self-certification and protection of consumers, and 
that is a very, very crucial balance to achieve and we believe 
the Safety Act and the facts of the last 70 years demonstrate 
that the right balance has been struck.
    I would note that NHTSA has a huge backstop in terms of 
governing behavior--a strong defect authority, information-
gathering authority--so it really is a powerful tool to govern 
behavior.
    You also have liability. You have reputational issues that 
condition behavior. The next slide drills down a bit on the 
35,000 lives lost in 2015 and what you see is at the very tip 
of the inverted pyramid you have about 1 percent, really less 
than 1 percent, that relates to the vehicle itself.
    We need to get that 1 percent down as far as humanly 
possible. But the magic of what you are doing today is that 
you're going to touch the 99 percent that is out there that we 
can make a difference on working together.
    Next slide. So there are clear hurdles here. We have got, 
you know, Government hurdles in terms of how Government manages 
to deal with the pace of innovation.
    We have got consumer acceptance issues, data risk, 
dislocation, technology itself--all the things that the opening 
statements have highlighted.
    The benefit stream is enormous. We have talked mostly about 
lives that have sustained injuries, access for the disabled, 
enhanced quality of life, less carbon emissions, more fuel 
efficiency, faster travel, more productive commerce, more 
flexible space utilization. The prize at the end of the rainbow 
here is enormous.
    So let's look at what countries are doing around--around 
the world and what you see is countries are nationalizing their 
frameworks for self-driving.
    That is what's going on globally, and there is a picture at 
the bottom of the Queen. She had a statement in May just a 
month ago, where even the Queen is getting into the act and is 
leading to the future.
    So this is the global context of--that defines the world in 
which you all are operating. And if we look at the next slide 
to the U.S., the U.S. is moving in a profoundly different 
direction.
    So rather than nationalizing our framework what we have 
been doing is establishing a patchwork and whether 70 or 80 
bills in the last year, it is a ton of activity.
    Not all of it is bad. Some of the State work is prudent and 
helpful. But when you have a patchwork it slows down innovation 
and that is a huge challenge.
    So the draft bills, we recognize, are a beginning and we 
are heartened by the call for bipartisan action and we are 
hopeful that a bipartisan bill can emerge.
    But we think it is a really good start. By increasing the 
number of vehicles eligible for temporary exemptions, the draft 
stimulates the generation of data that is necessary for later 
FMVSS.
    It provides the market incentive to drive the investment of 
industry research that ultimately will save so many lives and 
it enhances U.S. competitiveness in this space.
    The uniform national framework will accelerate testing and 
deployment and by adopting a forward-leaning approach you send 
a signal to States, to cities, and to the public that the 
future is worth accelerating.
    So I am down to my last slide and I am a little over. The 
point here is that this is a journey we are going to be on for 
a while. Moody's projects that AVs will not be ubiquitous until 
2055.
    Think of it: 1956, Eisenhower with the interstate highway 
system; 2055, nearly a hundred years later, ubiquity with AVs. 
It is a century of profound change for mobility. This committee 
has an opportunity to take the next great step to save lives 
and improve commerce and improve quality of life.
    This is the right time. We need to assert leadership and 
the question is ultimately will the technology be developed 
here in the U.S. or will it be imported.
    Thank you very much.
    [The prepared statement of Mr. Bainwol follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Mr. Latta. Well, thank you very much, and the Chair now 
recognizes Mr. Strickland for 5 minutes.
    Thank you very much for being here.

                STATEMENT OF DAVID L. STRICKLAND

    Mr. Strickland. Mr. Chairman, thank you so much for the 
opportunity, and Ranking Member Schakowsky, nice to see you 
again. I am looking forward to working with you on this 
important legislation.
    I want to commend this committee for its efforts in taking 
a leadership in this important suite of bills. It is the first 
of its kind to address the major national legislative and 
policy challenges related to deploying self-driving vehicles 
and the coalition looks forward to working with this committee 
as this draft evolves.
    My name is David Strickland and I am a partner at Venable 
LLP. I am testifying here today as counsel to the Self-Driving 
Coalition for Safer Streets.
    The coalition--which members include Ford Motor Company, 
Lyft, Uber, the Volvo Car Group, and Waymo--is focused on 
enabling the development and deployment of level 4 and level 5 
fully self-driving vehicles.
    This cross-section of companies demonstrates the widespread 
interest in developing this technology across different 
sectors--technology, automobile, and transportation networking.
    Despite their different backgrounds, the companies came 
together to form the coalition because of their commitment to 
bring tremendous potential safety benefits of self-driving cars 
to consumers in the safest and swiftest manner possible.
    The coalition believes that fully self-driving cars will 
play a key role in making our roads safer. The members have 
noted the importance of safety and the fact that we are going 
in the wrong direction.
    Not only did we lose 35,092 people in 2015, the trend line 
looks for 2016 it is going to get even higher, and as Ms. 
Dingell noted that 94 percent of these crashes have an element 
of human error.
    Self-driving vehicles have the ability to, frankly, cover 
those accidents. All of the variations of human error can be 
addressed by this technology, which is the reason why we think 
that it is so important to have this technology tested and 
deployed as quickly as we possibly can in the most safest 
manner possible.
    Self-driving vehicles also hold the promise to enhance 
mobility for the disabled and the elderly, reduce congestion 
and improve productivity.
    It would appear that the committee shares many of these 
goals, as demonstrated through the various bills under 
discussion today. I would like to take the opportunity to 
provide some comments and feedback on the discussion draft.
    First, we believe the LEAD'R Act is an important step in 
clarifying the appropriate Federal and State roles and 
responsibilities when it comes to fully self-driving vehicles.
    The Federal Government retains the authority to promulgate 
and enforce nationally uniform motor vehicle safety standards. 
We do not believe self-driving cars present a reason to deviate 
from that well-established precedent.
    States should be discouraged from just creating a patchwork 
of inconsistent laws and regulations relating to such standards 
and have the potential to stifle this emerging industry.
    The LEAD'R Act would more clearly delineate the States 
continue to retain their traditional role in establishing and 
maintaining rules of the road, vehicle registration, traffic 
enforcement, and with respect to insurance while making it 
clear that it is the Federal Government's exclusive authority 
to set the standards related to safety, performance, and the 
design of fully self-driving vehicles.
    We have suggestions, and we look forward to working with 
the committee to strengthen and bolster the technological 
neutrality of this language.
    I also want to highlight the collection of proposals 
related to the expanding vehicle exemptions to permit new 
safety features unique to fully self-driving vehicles--more 
specifically, the PAVE, ROAD, EXEMPT, and MORE Acts.
    Today, level 4 and 5 self-driving vehicles are subject to 
all of the criteria in the Federal safety standards, even 
though certain decades-old provisions were clearly designed 
with a human driver in mind.
    The numerical and temporal limitations on exemptions under 
current law present a concrete obstacle to achieve the goal of 
rapid, safe, and robust deployment necessary to attain the 
safety and mobility benefits we believe the fully self-driving 
vehicles promise.
    The coalition supports these four bills as they would 
expand NHTSA's authority to permit a greater number of vehicles 
to be allowed on the road for testing and deployment of highway 
automated vehicles and because they would authorize exemptions 
for two well-intentioned purposes--first, to promote the public 
adoption and acceptance or facilitate meaningful commercial 
deployment of a new motor vehicle safety feature system, or 
two, to promote transportation access to individuals with 
disabilities.
    We think these two new purposes for exemptions, along with 
the requirement for equivalent safety, strike the right balance 
to encourage the safe innovation of level 4 and level 5 
vehicles.
    While we suggest some wording changes such as using the 
same test for equivalent safety that presently applies to the 
safety features, we think that this is the right direction in 
terms of increasing innovation.
    While we appreciate the committee's draft legislation all 
across a number of advisory councils, we believe it also too, 
making sure we thank the committee for its widespread and 
inclusion of a number of constituencies of stakeholders in this 
field that believe will have a great important ability to fuel, 
I guess, debate and a more thoughtful approach to the 
committee's work.
    Thank you again for the opportunity. I am looking forward 
to your questions.
    [The prepared statement of Mr. Strickland follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Thank you very much.
    And Mr. Wallace, you are recognized for 5 minutes for your 
opening statement.

                STATEMENT OF WILLIAM C. WALLACE

    Mr. Wallace. Good morning, and thank you for the chance to 
testify.
    At the independent nonprofit Consumer Reports, experts at 
our auto test center have rigorously evaluated cars that can 
steer within a lane, adjust speed and brake automatically.
    Based on this work, we see the potential for self-driving 
vehicles to make our roads far safer. There is a smart safe 
path to realizing this promise that we encourage automakers, 
regulators and Congress to follow.
    Companies and policy makers should set a clear expectation. 
As highly automated vehicles improve mobility, these cars also 
must significantly improve safety for their occupants and 
others who share the road.
    Today, we urge the subcommittee to embrace both 
technological innovation and accountability. Innovation has 
brought about numerous practical and lifesaving features. But 
any accelerated deployment of automated vehicle systems should 
be evidence based and should include sensible and mandatory 
measures to protect consumers against new hazards that may 
emerge.
    First, with these principles in mind, we make several 
recommendations that are explained further in our written 
testimony. The first one is that exemptions from Federal safety 
standards for highly automated vehicles should be limited to 
equipment where a vehicle's automated driving system can fully, 
effectively, and safely replace a human driver's role.
    This would be consistent with NHTSA's governing statute. 
Further, because any vehicle should provide sufficient 
protection in a crash, no exemption should be granted for 
crashworthiness or occupant protection.
    Congress also should direct NHTSA to define specific 
criteria that must be followed by both companies and the 
agency. This could help bring some light to exemptions and make 
them more data driven which could, in turn, enhance consumer 
confidence. It also could promote business certainty to define 
a more specific process for exemptions.
    Second, new measures should be in place for vehicles that 
have level 2 or 3 driving automation which can give consumers a 
dangerously false sense of security and increase the risk of 
driver inattention.
    Humans have a limited ability to return to driving and 
monitoring the roadway after having disengaged from those 
tasks. Accordingly, additional NHTSA research into human-
machine interface should be fully funded.
    Disclosure to consumers about these vehicles should be 
improved and NHTSA should take a look at whether it would 
improve safety to set performance standards for emerging 
systems and monitor whether the driver is paying attention and 
is able to take the wheel when alerted.
    Third, automakers should make their safety-related data 
public and share it with regulators in a timely manner. Right 
now, industry claims of the safety benefits of highly automated 
vehicles appear to be speculative or based on data held 
internally. Greater disclosure would help companies build trust 
in their products, which right now is lacking.
    For example, preliminary survey results released by MIT 
AgeLab in late May indicated that only 13 percent of 
respondents would be comfortable with a fully autonomous car, 
down 10 percentage points from the previous year.
    Fourth, preemption of State and local authority should be 
narrowly tailored and limited to areas where NHTSA has set 
strong Federal safety standards.
    It would be inappropriate to displace States' authority to 
protect their citizens without also having strong Federal 
safety standards in place.
    But if the subcommittee does preempt the States, it should 
be with a far narrower provision that does not inhibit 
traditional approaches States have used to protect their 
citizens.
    Fifth, the FTC and NHTSA should be given the authority to 
jointly set baseline enforceable privacy and security standards 
for cars. A nationally representative Consumer Reports survey 
found last month that 70 percent of U.S. adults lack confidence 
that their personal data is private and safe from being shared 
without their knowledge and, as multiple Federal agencies have 
documented, a breach of car systems can come with a risk of 
deadly consequences.
    Consumers should know what data their car is collecting and 
who has access to this information and should be able to trust 
that companies are legally obligated to protect their privacy 
and security.
    Sixth, NHTSA's research, enforcement, and other 
capabilities should be strengthened significantly for both 
increased funding and authority.
    NHTSA remains chronically under resourced and needs 
expanded funding and personnel as well as a greater practical 
ability to get unsafe cars off the road quickly.
    For the agency to be the kind of watchdog consumers 
deserve, Congress should give it the authority to take action 
without delay on defects that presents an imminent hazard as 
has been proposed in the Vehicle Safety Improvement Act.
    In conclusion, we see great safety potential in self-
driving cars. But that promise should be realized by following 
a smart safe path like the one we propose today.
    As it continues its work, we stand ready to help the 
subcommittee ensure that these principles are upheld in the 
law.
    [The prepared statement of Mr. Wallace follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Thank you very much.
    Mr. Morrison, you are recognized for 5 minutes.

                 STATEMENT OF ALAN B. MORRISON

    Mr. Morrison. Thank you, Mr. Chairman.
    My written statement explains the general principles I 
believe should be applied to this area but now I want to take a 
lawyer's role and go over the bills that are before this 
committee.
    It is necessary because the other witnesses, neither in 
their written statements or in their oral statements, have gone 
through in detail and I think it is very important to 
understand exactly what kind of major changes these proposed 
laws would make.
    Part of the problem is that each one of these draft bills 
is a small piece of the problem and they are not all put 
together in the staff memorandum or anyplace else.
    As I read them, these would enact major changes in the 
laws. There would be less safety and more preemption, and it is 
all in the name of technological advances, which is wholly 
unnecessary to full testing, and that is my first point.
    There is no law change now to enable NHTSA to get out of 
the way of testing. There is a specific exemption in the law 
now, 30112(b)(10), which specifically says that the general 
prohibition of putting vehicles on the road without approval 
does not apply and therefore there is nothing standing in the 
way right now of all these vehicles being tested. The question 
is what else is going to happen.
    Now, I would point out that under my reading of the current 
preemption statute that States are permitted to regulate 
testing largely because NHTSA has no rules on testing.
    The testing provision makes it not applicable. It doesn't 
mean that it is complying with the Federal Motor Vehicle Safety 
Standard.
    But what's most significant is that the LEAD'R bill will 
vastly expand the exemption from State regulation at all. Under 
current law there has to be a Federal Motor Vehicle Safety 
Standard in order for there to be preemption.
    That has changed under the LEAD'R bill. The LEAD'R bill 
provides that States cannot do anything unless they are doing 
something which is identical to what NHTSA has done.
    Since NHTSA has done nothing and has no immediate intention 
of doing nothing, that means that under this bill, no matter 
how little NHTSA does, the States can't do anything. That's 
very important and it is a major change in the law, and we are 
talking only about testing.
    Now, the second thing I want to talk about is the 
exemptions. These exemptions are not necessary for testing. 
They are necessary for deployment. Deployment means that 
anyone--you or I or the car rental companies or anyone in the 
country--can drive one of these vehicles under one of the 
exemptions. Testing means that only the car companies--the 
owners, the operators, and the people they contract with who 
are specially trained--are allowed to do this.
    So there is a big difference between deployment and testing 
and this exemption would apply to deployment. And let me tell 
you how broad this exemption is.
    It would go from 2,500 vehicles a year to 10,000 vehicles 
in a 12-month period for every single manufacturer of these 
vehicles and I believe there are 30-something companies.
    If my math is right, you multiply 30 times 100,000 per year 
and you get an idea of how much this exemption is going to 
allow these vehicles to be on the road with no NHTSA 
supervision whatsoever.
    Moreover, the process by which these exemptions is granted 
is going to be completely ineffective. The question before the 
agency will be is there an equivalent level of safety.
    That is a very difficult question to answer for vehicles 
that have never been tested, which have totally new features, 
which don't have brake pedals, steering wheels, accelerators, 
which assume that the driver is going to be in the car.
    Moreover, what NHTSA is going to be able to do is to say 
that none of this information that the auto companies are 
submitting can be seen by State regulators, the public, by 
members of this committee or anybody else because it is all 
confidential business information.
    Now, that means there is going to be no one guarding the 
guards. No one's going to be checking to see that what NHTSA 
does is going to assure the safety of these vehicles.
    I want to be clear. I am not opposed to these vehicles. I 
am not opposed to testing. But we need somebody to look at this 
material besides just NHTSA and the auto companies. There is a 
big problem of trust now in this industry and I don't think 
that the driving public, the pedestrians and everyone else in 
the world is going to be satisfied by saying it is all OK, 
NHTSA is taking care of it when we know that it is not doing 
anything and leaving it to all of the companies that have their 
own economic interest in doing this.
    Now, the bottom line for me is that when you work through 
the maze, and it is a maze of these rules, there is no 
requirement for new Federal regulation. None.
    Second, there is much greater preemption of State law. 
Third, there is much broader deployment, not testing 
exemptions.
    Fourth, there is no clear standards for granting the 
exemption, and fifth, almost total secrecy for the industry in 
submitting their test data and other information that is so 
necessary.
     So I want to ask this question. Is this what your 
constituents want? Do you think that this will engender public 
trust? I don't. I think there is a way forward but these bills 
are not it.
    Thank you very much.
    [The prepared statement of Mr. Morrison follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Thank you very much for your testimony this 
morning.
    And Mr. Day, you are recognized for 5 minutes. Thanks.

                      STATEMENT OF TIM DAY

    Mr. Day. Thank you. Chairman Latta, Ranking Member 
Schakowsky, and members of the Digital Commerce and Consumer 
Protection Subcommittee, good morning.
    My name is Tim Day. I am senior vice president of C-TEC, 
the Chamber Technology Engagement Center. Thank you for the 
opportunity to provide testimony this morning on self-driving 
vehicles.
    The U.S. Chamber of Commerce is the world's largest 
business federation representing the interests of more than 3 
million businesses of all sizes, sectors, and regions as well 
as State and local chambers and industry associations.
    The chamber established C-TEC to advance technology's role 
in the U.S. economy. I am here to testify on a vital aspect of 
the business environment--preemption--and also to support the 
LEAD'R Act.
    The Chamber of Commerce has historically supported 
preemption for all modes of transportation as transportation is 
key to the healthy interstate commerce and the growth of our 
economy.
    For example, according to the Department of Transportation, 
more than $1 out of every $10 produced in the U.S. GDP is 
related to transportation activity. As you can imagine, the 
United States is not the only country currently developing 
self-driving technology.
    In China, Baidu, one of the largest internet companies in 
the world, has already announced that it will introduce its 
fully autonomous cars on highways and open city roads by the 
year 2020.
    And Germany recently passed legislation to allow road test 
vehicles in which drivers will be allowed to take their hands 
off of the steering wheel.
    For the United States to continue to be globally 
competitive in the self-driving vehicle market, we must provide 
American innovators with a single set of standards as opposed 
to a patchwork of laws by individual States.
    Technology companies come in all sizes. Many of the current 
industry leaders once began with just an idea. The companies of 
tomorrow also will be started with ideas and we must create a 
business-friendly environment to allow them to succeed and 
thrive.
    A recent Morning Consult survey just last week of over 
2,000 registered voters found that three in five voters support 
the use of self-driving vehicles.
    It also found that voters overwhelmingly predict the 
positive impact of self-driving vehicles on the disabled and 
elderly citizens of this country as well as the issues of drunk 
and distracted driving.
    And finally, voters strongly prefer Federal standards when 
it comes to laws governing the use of self-driving vehicles. 
While further education of the American public is needed, this 
poll points to the fact that the public recognizes the 
potential benefits of this technology and the role of Federal 
Government.
    C-TEC's autonomous vehicle working group has been convening 
stakeholders from both the commercial and passenger vehicle 
sectors to ensure that the regulatory environment will allow 
for the U.S. to capitalize on these societal and commercial 
prospects.
    From an economic perspective, a study by Intel completed 
this month shows that the economic opportunity from self-
driving vehicles will grow from $800 billion to $7 trillion as 
self-driving vehicles become mainstream.
    The study also finds that by the year 2050 the passenger 
economy, which is the result of self-driving vehicles turning 
drivers into passengers, will be a $7 trillion global industry.
    Business use will generate $3 trillion as industries use 
self-driving vehicles to reshape their businesses and leverage 
new opportunities.
    All this to say when we talk about self-driving vehicles, 
commercial or passenger, there is a lot at stake for the 
American people, our businesses, and our economy.
    To conclude, the chamber supports the development of 
voluntary standards that do not constrain innovation. We 
advocate for technology-neutral policies that will allow new 
technology to develop and recommends against policies that are 
too specific.
    The chamber also supports exemptions and recommends that 
regulatory agencies work closely with industry to craft these 
standards.
    On behalf of C-TEC, I thank you for the opportunity to 
testify this morning and I look forward to your questions.
    [The prepared statement of Mr. Day follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Thank you.
    Mr. Bozzella, you are recognized for 5 minutes for your 
statement.

                   STATEMENT OF JOHN BOZZELLA

    Mr. Bozzella. Mr. Chairman, thank you very much. Ranking 
Member Schakowsky, Chairman Walden, members of the 
subcommittee, thank you very much for the opportunity to 
testify today.
    I am John Bozzella, president and CEO of the Association of 
Global Automakers. Global Automakers represents major 
automotive manufacturers and suppliers that are making enormous 
investments in connected and automated vehicles right here in 
the United States.
    We thank the committee for its continued interest in 
vehicle automation and are encouraged by the discussion draft 
which advances a number of important ideas to help deploy 
automated vehicles.
    So why are we here? For Global Automakers, it is all about 
safety. Thirty-five thousand people lost their lives on 
America's roadways in 2015.
    Unfortunately, this number is rising even though vehicles 
are safer than they've ever been. We need to work toward a 
future where cars no longer crash and zero lives are lost on 
the roads.
    To get to zero, we need a comprehensive safety approach 
that involves all road users and transportation providers. 
Automated and connected vehicle technology is fundamental to 
this effort.
    Right now, the auto industry is developing and deploying an 
array of automated vehicle technologies. These advancements are 
developing rapidly and we can put vehicles on roadways now and 
in the near future that will help save lives while regulators 
develop the necessary policy framework.
    So the question is what do we do in this interim period? 
First, we need one set of running rules to support widespread 
introduction of automated vehicles.
    Congress must clarify that the Federal Government is the 
primary regulator of motor vehicle safety. The law currently 
recognizes that a national vehicle marketplace needs uniform 
safety standards and that a vehicle purchased in one State can 
drive to a neighboring State.
    Unfortunately, some States, perceiving a vacuum, have begun 
to regulate. This will lead to conflicting rules that could 
impede development of lifesaving technologies.
    Second, in the interim, we need a flexible process that 
provides safety assurance while allowing meaningful deployment 
of these technologies.
    This process should assure the regulator and the public 
that automakers are designing their systems with safety first 
in mind.
    It is important that this assurance process be nimble and 
account for the rapid pace of innovation as NHTSA develops the 
data and basis for updating regulations.
    Congress has a clear and key role to play in helping to 
remove barriers to innovation by expanding opportunities to 
deploy these technologies.
    The way to do this is to expand the current exemption 
levels for certain motor vehicle safety standards that were 
written for mechanical devices in a way that maintains motor 
vehicle safety.
    Finally, Congress should ensure that any framework does not 
pick winners and losers but instead encourages all levels of 
automation.
    While level 4 and 5 driverless cars will bring significant 
benefits, level 3 vehicles, where the driver is still in the 
loop, can also provide major gains in safety, particularly for 
rural areas where highway fatalities are over twice the rate of 
urban areas.
    Any framework should allow testing and deployment of all 
levels, and while safety is paramount, automated vehicles also 
create other benefits such as improved mobility for underserved 
communities and environmental benefits as automation, combined 
with transportation as a service, could significantly increase 
demand for electric vehicles.
    Congress has the opportunity now to set the policy 
framework that will help ensure these benefits become a 
reality.
    We look forward to working with the subcommittee on 
legislation to promote rapid and safe deployment of automated 
vehicles and I would be happy to answer any questions you may 
have. Thank you.
    [The prepared statement of Mr. Bozzella follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Well, thank you very much for your testimony 
today, and that will conclude the statements from our panel 
and, again, thank you very much for being with us today.
    And I will recognize myself for the opening questions. Mr. 
Bainwol, I would like to begin with you. Cybersecurity is a 
critical issue that has been raised by members on both sides of 
the aisle.
    I know that when Mr. Welch from Vermont and I did the 
internet of things last Congress in our working group we had 
some discussions on this in that cybersecurity was a big issue 
that had come up.
    What's the current status of the Auto Information Sharing 
and Analysis Center and what is the proper role for Government 
in the cybersecurity for self-driving cars?
    Mr. Bainwol. Thank you, sir.
    First, cyber is absolutely a concern and it is one that as 
we move forward in this process we need to address. The auto 
industry in 2015, I believe it was, John--2015--established the 
ISAC uniquely in advance of an event. Almost every other sector 
had established an ISAC after an event occurred. So we were 
proactive--an overused word but truthful in this case, and the 
ISAC is up and running.
    What I'd like to do is offer the ISAC to come in to brief 
the committee privately. It is difficult to walk through the 
process and procedure of the ISAC that is in a public setting 
because we don't want to provide a roadmap for actors who want 
to abuse the system.
    But I think it might be useful as you contemplate 
finalizing this package of legislation to hear directly from 
the ISAC and so I'd like to make that offer.
    But it is up and running. It is promulgating best practices 
and it is dealing with threats today.
    Mr. Latta. Let me ask, as a quick follow-up, should the 
Government set the cybersecurity standards or act as a watchdog 
or what?
    Mr. Bainwol. So the threat is a dynamic one and the notion 
of setting standards today may be relevant for the moment but 
not enduring. And so we think that the approach should not be a 
standard set by Government.
    Mr. Latta. Thank you.
    Mr. Day, your members include a host of industries involved 
in the development of self-driving cars. How important is a 
national safety framework at NHTSA for keeping self-driving car 
innovation in the United States?
    Mr. Day. Absolutely. Thank you for the question, Mr. 
Chairman.
    So we have been working on this issue at the chamber for 
quite some time. We have developed a working group of both 
large and small companies that have been engaged for quite some 
time.
    It truly is critical. We believe that, you know, as we were 
discussing in the opening statements, the Obama administration 
set the framework for this activity last year. The foreign 
competition is real.
    As I mentioned in my testimony, you've got China, you've 
got Germany and a number of other countries that are looking at 
this technology and for us to continue to maintain leadership 
in this area it is critical that we move forward with this 
legislation as proposed and we look forward to working with you 
and the members of this subcommittee to make sure that that 
happens.
    Mr. Latta. Thank you.
    Mr. Bozzella, let me turn to something you said in your 
testimony that has been something I have brought up for a good 
number of months here.
    You stated that the advancements are developing rapidly. 
You know, if you look back 5 years--and one of the great things 
about serving on this committee and especially on this 
subcommittee, we look over the horizon, and the companies out 
there that are doing development are looking at the horizon--
would you say that, if you look back 5 years, are you where you 
are today or are you farther ahead than you thought you'd be 5 
years ago?
    Mr. Bozzella. I think we are much further ahead than I 
thought we'd be and I have been in the industry over 20 years, 
and I think that it continues to surprise me, the rapid pace of 
innovation, and I think we have a real opportunity here with 
this framework to responsibly and effectively, with safety 
first in mind, continue to allow now these advancements to 
deploy into the marketplace and save lives.
    Mr. Latta. Thank you.
    Mr. Strickland, there has been some discussion of the 
States filling the gap in the safety regulations with State-
specific self-driving car rules.
    What would it mean for your members to comply with 50 or 
more different safety frameworks, and how and why is this not a 
concern today with cars on the road?
    Mr. Strickland. Mr. Chairman, frankly, I mean, this would 
be a disaster, frankly, not only the members of my coalition, 
which includes three technology companies and two OEMs, but, 
frankly, the entire industry.
    As was stated by the panel, historically speaking, the 
National Traffic and Safety Act is meant to create a uniform 
national framework of vehicle safety to make sure that there is 
no gaps in safety for any vehicle in the stream of commerce in 
the United States and more specifically not to hamper 
innovation.
    When you think about how cars are being tested today, the 
innovation is like--electronics' ability to control that was 
introduced in 1990 all the way through crash imminent braking.
    Those are innovations that were built within the current 
framework that maintain safe thoughtful testing and deployment 
and also have the protection of making sure that you can do 
this in all 50 States.
    So if this evolved or changed or if States created 50 
individual mini NHTSAs it, frankly, would be the undoing of, 
frankly, our auto market and really impact our competitiveness, 
our ability to be able to move new technologies into the fleet 
thoughtfully and safely.
    Mr. Latta. Thank you very much. My time has expired, and 
the Chair recognizes the gentlelady from Illinois, the ranking 
member of the subcommittee, for 5 minutes.
    Ms. Schakowsky. Thank you, Mr. Chairman.So both you, Mr. 
Wallace, and you, Mr. Morrison, observed in your testimony that 
NHTSA's capabilities should be strengthened significantly 
through increased funding and authority, and you, Mr. Morrison, 
it sounds like to fill a vacuum.
    So let me ask each of you to comment, and if you could be 
brief because I have a number of questions. Do you believe that 
NHTSA currently has the authority, data, staff, expertise to 
ensure that highly autonomous vehicles are safely deployed?
    Mr. Wallace.
    Mr. Wallace. No. I believe that NHTSA needs far more staff 
that have the expertise in electronics and software. NHTSA 
needs to receive far more data about automated vehicle systems 
from companies and the systems that are approaching level 3, 
and as for authority, NHTSA, although some of the other 
witnesses have talked about NHTSA's broad authority, what we've 
seen in practice is that the agency has not had a practical 
ability to get vehicles off the road quickly. And so NHTSA 
needs imminent hazard authority so it can do that.
    Ms. Schakowsky. Thank you.
    Mr. Morrison.
    Mr. Morrison. I will speak only about the authority 
question. I have no question in my mind that NHTSA has the 
authority to fill the vacuum and if it does it would be proper 
to preempt State laws.
    The problem is that the industry position is voluntary 
guidance from NHTSA is enough and the States should stay out of 
the way.
    I don't think that is the right balance to be struck and 
that NHTSA ought to find some way to exercise its authority not 
over testing specifically but before we start getting into 
deployment, which is what really concerns me.
    Ms. Schakowsky. You reacted to the statement that there 
ought to be exemptions for safety standards. I wondered if you 
wanted to comment on that.
    Mr. Morrison. I want to be clear that I am talking about 
the exemptions for deployment. That is, when anyone other than 
the car manufacturer is driving the vehicle or operating the 
vehicle, I guess, is more proper in this context, or 
controlling the vehicle even if nobody is in it that is where I 
get worried about the exemptions.
    We don't need any exemptions for the testing phase and the 
concerns about foreign countries getting ahead of us they will 
not be able to bring their cars into this country unless their 
HAVs meet our safety standards.
    There are currently no safety standards for them to meet. 
So unless they get an exemption, and they would not be eligible 
for exemptions here, we don't have to worry about foreign 
competitors.
    We need to do testing and then worry about exemptions and 
preemption after that.
    Ms. Schakowsky. So, Mr. Wallace, you were talking about 
NHTSA has already requested imminent hazard authority. Is that 
true?
    Mr. Wallace. That's true.
    Ms. Schakowsky. I want to talk about a number of issues 
that are currently on the safety radar screen, at least for me.
    You said, Mr. Morrison, in your written testimony, ``The 
focus on driverless cars and their potential for saving lives 
and money is not a green light to abandon all other safety-
related rules that NHTSA could issue now without any changes in 
its governing statute,'' and I just wanted to bring up again an 
issue that has been close to my heart and constituents and 
consumers that I have been dealing with.
    Last year, 39 children died in vehicles from heatstroke, 
and I have talked to parents and we've had a press conference, 
the most heartbreaking press conference I ever had, who can 
never ever forgive themselves about forgetting their child in 
the back of a car.
    So, Mr. Wallace, how could NHTSA help reduce the number of 
heatstroke victims?
    Mr. Wallace. NHTSA could reduce the number of these tragic 
deaths that occur by requiring every new vehicle to have 
technology on it that notifies the driver if there is a child 
still in the back seat, and that is what the Hot Cars Act would 
do and that is why we support it.
    Ms. Schakowsky. And, Mr. Morrison, so you would put a focus 
on testing. Do you feel that the legislation before us doesn't 
distinguish sufficiently between testing and deployment? Is 
that a chief flaw that you see right now?
    Mr. Morrison. I think you have to read it very, very 
carefully to understand that deployment doesn't mean testing. 
Deployment means selling these cars to fleets like Uber, car 
rental companies, or anybody else who is willing to buy them at 
$100,000 per year per manufacturer with 5-year exemptions.
    That strikes me as an awful lot beyond testing and I think 
we need to be careful to say testing is OK now but no 
exemptions for deployment.
    Ms. Schakowsky. I am wondering if--my time is up--if you 
could give us your suggestions on how to proceed ahead and I 
would welcome them also from you, Mr. Wallace.
    Mr. Morrison. I will try to draft something for you.
    Ms. Schakowsky. OK. That would be great.
    Thank you. I yield back.
    Mr. Latta. Thank you very much. The gentlelady yields back.
    The Chair now recognizes the chairman of the full 
committee, the chairman from Oregon, for 5 minutes.
    Mr. Walden. I thank the chairman. Again, I thank our panel 
of witnesses. Your testimony is most helpful in our work and we 
appreciate your insights and opinions.
    Mr. Bainwol, there are many potential benefits for self-
driving cars, as we have heard from various participants in 
this discussion. I expect we'll hear even more today.
    That said, self-driving cars are not on the road today and 
won't be for the next few years. Why are these concepts in the 
discussion drafts important for your members--could you look at 
that for us--when it comes to innovation in developing self-
driving cars?
    I mean, it is a range of options we are talking about here 
to get to where there is no steering wheel and it is completely 
autonomous, right?
    Mr. Bainwol. So this is a relatively long evolution. It is 
both true that the future is here and that it is going to take 
a while to get here in full. So I alluded to Moody's 
stipulating that ubiquity would occur in 2055 so that is 40 
years from now.
    But they'll be available in 2020, 2021. It is right around 
the corner and the research is going on as we speak and has 
been for years.
    So the question here is how do we accelerate the future in 
a prudent way that maximizes safety. In my oral, I discuss the 
NHTSA framework that sought to optimize the balance so that 
you'd have protection of consumer but also the lubrication for 
innovation to occur. And that is really what this day is all 
about is how do you promote and maximize innovation here in the 
United States.
    Mr. Walden. And I want to point out again that these are 
staff discussion drafts. This is the beginning, not the end, 
and the importance of having everyone weigh in is not lost on 
us.
    Mr. Day, in your testimony you mentioned a survey, I 
believe, that was completed earlier this month. Did that survey 
look at how people who have some of the advanced safety 
features on their cars, they feel about the future of self-
driving cars?
    I gave you my example and it seems to me you would go, wow, 
that makes a big difference. Does that affect the data?
    Mr. Day. It does, and so people, once they start to 
experience, from our findings, from semi-autonomous vehicles, 
from automatic braking, from lane assistance----
    Mr. Walden. Right.
    Mr. Day [continuing]. Et cetera, when they start to 
understand the benefits and they understand what that means to 
overall safety, people understand and appreciate and support 
the technology. Absolutely.
    Mr. Walden. Yes. And I have to believe that, you know, 
you're going to reduce vehicle accidents, clearly, and the cost 
that goes with it.
    I suppose the auto body shop folks might not be as happy--
oh, they don't want all this either, I know. But my chief of 
staff got a new Jeep--I will probably get in trouble for 
telling this story--but she was backing up and it stopped 
because she was very close to something near her mirror and it 
stopped the Jeep.
    And I just think about the savings this is going to bring 
everybody and the ability to save lives and injuries.
    Now, we do want to make sure before we unleash all these 
vehicles on the road with no steering wheels, off in the 
future, that that all is going to work.
    I got to admit, you know, that leaves you a little 
unsettled initially that all that may happen and how do you 
override it? I know with the technology in our car you can 
clearly override it but it does keep you in the lines.
    Now, I also have seen where--and this is part of why I 
think you need Federal involvement--if the paint is gone or not 
sufficient along the side lines or the center line or whatever, 
then that part of the safety technology doesn't work.
    So do you need a paint standard? By the way, none of that 
works if you got two inches of snow and ice, I assume, on the 
road. I mean, you're always going to have some level of 
importance of driver involvement.
    As you're looking at the development, going forward, what 
is it that will work in those situations where it is not a 
clear highway? Who can address that in terms of how we might 
minimize those--yes, sir. Go ahead.
    Mr. Bozzella. If I could, Mr. Chairman. I think you make 
two really important points. One is this is a whole spectrum of 
technologies that will be deployed based on competing business 
models, right.
    So you'll have driverless vehicles, but you'll also have 
vehicles where the technology is a guardian angel. I think that 
is a very important point.
    To your point about--we will call it redundancy, the idea 
that you need lots of different sensing capability: cameras, 
radar, LIDARS--we think vehicle-to-vehicle communications and 
vehicle-to-infrastructure communications is, frankly, the code 
that will connect all of these technologies together that will 
work in the snowstorm, that will connect highly automated 
vehicles with less automated vehicles. So that, to us, would be 
a significant policy and technology answer to your question.
    Mr. Walden. All right. It appears my time has expired.
    Chairman, thank you again for your leadership on this. I 
know everybody on the committee is very intrigued by what 
you're doing here and the drafts and where we might head. So I 
yield back.
    Mr. Latta. Thank you very much. The gentleman yields back.
    The Chair recognizes the gentlelady from Michigan for 5 
minutes.
    Ms. Dingell. Thank you, Mr. Chairman. I want to thank you 
and your staff for all of the hard work on these bills. Taken 
together, they are an important step in the right direction to 
unleashing a safe autonomous future and I think for everybody 
in the room the way that they were drafted was to allow 
complete discussion of the various issues for people to express 
their concern, to not have this mammoth bill that nobody can 
read.
    But it is, obviously, a subject that is the future, has 
many issues connected with it. I am committed to working with 
my colleagues on both sides of the aisle to pass bipartisan 
legislation--it would be nice to say nonpartisan; why does the 
world always have to be Republican, Democratic?--American 
legislation that protects safety.
    There is nobody that is more bugaboo about cybersecurity 
than me. I didn't get a Kroger card for years because I didn't 
think it was anybody's business what I bought. And the motor 
vehicle safety issue we are trying to address--people don't 
realize that legislation right now is out of date. It is 50 
years old, and it has not kept up with technology, and it is 
moving so rapidly.
    Joan Claybrook is in the audience. She's been a hero of 
mine for a long time. How do we, in our ever-changing world, 
make sure what she's fought for a lifetime is there but that we 
aren't becoming outdated in this country because we are not 
keeping up? These are real issues that we need to talk about 
honestly and try to figure out.
    That said, I think it is very important we have clear rules 
of the road for Federal and State authorities when it comes to 
AVs.
    As you know, I represent the employees of a number of 
OEMs--yes, I am a car girl, and I am proud of it--who are 
investing in a lot of autonomous vehicle development. Those 
companies agree that establishing clear responsibilities for 
Federal and State authorities is essential. They also agree 
that we need a mechanism that will allow autonomous vehicles to 
be deployed in a safe and responsible manner. The PAY, ROAD, 
and EXEMPT Acts are designed to do that.
    Could I ask you all quickly whether you share that view and 
how will these bills help facilitate safe and responsible 
deployment? We will start with you, Mr. Bainwol.
    Mr. Bainwol. Sure. It is the combination of the two that is 
vital. You both need a national framework so that there is not 
confusion and you can--you can design to a single national 
approach.
    But you also need exemptions, and exemptions are not willy-
nilly. This is a process where you will--where you will have to 
submit evidence to NHTSA, and if NHTSA does not feel like the 
evidence warrants the exemption it will not be granted.
    This will take months. There will be public comment. So the 
notion that this is just the Wild West is not accurate.
    The combination of the two--the national framework and the 
ability to invest a substantial amount of money, and have 
exemptions and a number where you can drive a return--is 
crucial. One without the other does not work.
    Ms. Dingell. Mr. Strickland, we are going to have to go 
fast. I got a minute and 52 seconds, and 20 questions is not 
going to work. But keep going.
    Mr. Strickland. Ms. Dingell, I align with Mr. Bainwol's 
assessment. I will make it that quick and easy, and I can 
expand LEAD'R.
    Mr. Morrison. So I would say two things.
    First, the statute is not out of date in terms of being 
able to do this particular job of writing standards.
    Second, if I were in charge, I would say direct NHTSA to 
begin work on standards immediately and start down the road and 
stop relying on voluntary guidance.
    That's the best way to strike the balance between State 
involvement and Federal involvement. If the Federal Government 
doesn't get involved, the States are going to fill the vacuum.
    Mr. Wallace. So we at Consumers Union Consumer Reports we 
are not opposed to testing. We are not opposed to the idea if 
exemptions. But first I want to note that not all highly 
automated vehicles will need exemptions.
    And second of all, we need across the board criteria for 
when exemptions are granted and how to apply for them so that 
it is clear to the public what assurances are provided about 
their safety.
    Ms. Dingell. Any other comments?
    Mr. Wallace. I agree with Mr. Bainwol's comments earlier.
    Mr. Bozzella. Yes. I agree also. We have a language 
problem, right. We have rules, Federal Motor Vehicle Safety 
Standards, that refer to mechanical devices in human beings, 
and we need an opportunity in the near term to responsibly, 
with safety first in mind, deploy vehicles while the agency 
does its work.
    Mr. Morrison. May I say those standards are not a barrier 
to testing. The tests can go on right now with those existing 
standards because the statute says that the standards do not 
apply when there is testing going on.
    The big divide is between testing and deployment. Testing 
means that the auto companies have qualified people in these 
vehicles or running them. Deployment means anyone can do it. 
That is the big divide.
    Ms. Dingell. I want to say that we agree that when it is 
deployed that we address that motor vehicle safety--there are 
some differences here.
    Mr. Chairman, I'd like to put more questions in the record. 
Michigan shares with California wanting to be at the forefront 
making sure that this is safe. But we got to keep moving. So 
thank you very much.
    Mr. Latta. Thank you very much. The gentlelady's time is 
expired.
    The Chair now recognizes the gentleman from Mississippi, 
the vice chair of the subcommittee, for 5 minutes.
    Mr. Harper. Thank you, Mr. Chairman.
    Mr. Strickland, in your testimony you mention the numerical 
and temporal limitations on exemptions under current law.
    Can you please explain why such limitations may present 
really concrete obstacles to the development and deployment of 
self-driving cars?
    Mr. Strickland. Yes, sir. The bottom line being is NHTSA 
lives on data. The only way that you get data is, frankly, 
ultimately by real-world experience and, frankly, deployment 
and testing are, frankly, our tongue and groove.
    So having the ability to test beyond, you know, 2,500 
vehicles for 2 years, frankly, is a hard limitation that you 
can't generate the kind of data needed for NHTSA's next 
activity. So this expansion, thoughtfully done, is a very 
necessary approach.
    Mr. Harper. OK. So if we are talking about that expansion, 
how will increasing the number of vehicles the manufacturer can 
get in exemptions help push this technology forward?
    Mr. Strickland. Well, I will say, think about--once again, 
you'll never divorce us from safety. It still had to prove 
equivalent safety in terms of what you're looking at the 
exemption for, number one, and as administrator of NHTSA for 4 
years, it is a power that is, frankly, very jealously guarded 
and very cautiously used.
    It has to be well evidenced, as Mr. Bainwol noted in his 
commentary. So having the opportunity to be able to have an 
expanded fleet to gather data can inform what's working in the 
fleet, what's not working in the fleet, what technology is 
working.
    Parts of what the policy that the Obama administration laid 
out last year gives the vector for the agency to be able to 
build the case for a future possibility of rulemaking.
    Without those exceptions, the agency had nothing to act on 
and it is going to be inert unless it gets that data. That's 
why exceptions are so necessary.
    Mr. Harper. Right. So speed up the time line is what we are 
talking about here.
    Mr. Strickland. Absolutely. Yes, sir.
    Mr. Harper. Right. If I could, Mr. Bozzella, I have heard 
some people argue that self-driving cars are good for 
encouraging the adoption of electric vehicles. Do you have an 
opinion on that topic?
    Mr. Bozzella. Yes, I do, and I think there are people 
across the spectrum that are looking at this and researching 
this. I do believe that when you combine these two very 
significant technology trends and advancements, one, automated 
vehicles, especially highly automated and driverless vehicles 
with changing ownership models, the idea of transportation as a 
service, those will create demand, in my view, for electric 
vehicles which have a perfect sort of capital model for that 
type of business.
    In other words, they have a greater up front cost but lower 
operation costs and so I think you'll see transportation as a 
service--providers who are using highly automated platforms 
adopt electric vehicles as well.
    Mr. Harper. OK. Thank you very much.
    Mr. Bainwol, it is good to see you again. I had a chance to 
visit with you at a reception not too long ago. You know, 
individuals with disabilities often face those transportation 
obstacles that we've talked about and from personal experience 
it does make daily tasks such as employment and other items 
very difficult.
    Do you see self-driving cars as being a catalyst for 
breaking down some of those barriers?
    Mr. Bainwol. Being a catalyst?
    Mr. Harper. Yes.
    Mr. Bainwol. Absolutely. There are an infinite number of 
benefits from self-driving cars from economic to quality of 
life.
    But the most profound one, in addition to the saving of 
life, is the quality-of-life aspect for those in the disabled 
community.
    Mr. Harper. OK. Do you see your members thinking about the 
potentials for the disability community as they plan out this 
and they look at the future and their future business plans for 
self-driving vehicles? Is this being considered by everyone?
    Mr. Bainwol. Absolutely, and not a member but a few years 
ago Google made a demonstration at Waymo of the blind 
individual going to a Taco Bell and it was a very vivid 
demonstration early on in this process that automation has 
these benefits.
    Mr. Strickland. Mr. Harper, may I add in on it?
    Mr. Harper. Yes, please, Mr. Strickland.
    Mr. Strickland. Absolutely. We are talking about a 
community of 36 million people that are underserved because of 
lack of individual transportation choices.
    Twenty million of those people, frankly, have the ability 
to work and be a part of this economy. Our members specifically 
have talked about this and have integrated disability groups 
into our coalition as well to think about this. How do we build 
a vehicle from the bottom up to make sure that it is fully 
accessible for the variations of the disability community?
    So we are very much leaning into that possibility not only 
for the safety benefits but how do we better serve, frankly, an 
underserved community that has suffered for way too long.
    Mr. Harper. Yes, and this is a question I would like to ask 
you, Mr. Strickland, and you, Mr. Bozzella, and that is what 
benefits do you see in creating councils that allow 
stakeholders, innovators, members of the public with expertise 
in self-driving cars to engage with public officials?
    Mr. Bozzella. I think the public debate is very important. 
I think manufacturers have a significant role in public 
education and I think part of that public education process is 
bringing different stakeholders together to continue to have 
dialogue about how to deploy these vehicles.
    I would say that that dialogue should also include 
automotive suppliers who are driving a significant amount of 
this vehicle technology research and development.
    Mr. Harper. My time has expired.
    Would you agree with what he just said, Mr. Strickland?
    Mr. Strickland. Yes. Not only with Mr. Bozzella, but I also 
think about too all those stakeholders, but especially those 
communities that have been affected, like the disability 
community, to be able to communicate their issues and their 
needs specifically but, frankly, everybody along the chain of 
responsibility in manufacturing and developing vehicles should 
have some say.
    Mr. Harper. Thank you. With that, I yield back.
    Mr. Latta. Thank you very much. The gentleman yields back 
the Chair now recognizes the gentleman from California for 5 
minutes.
    Mr. Cardenas. Thank you, Mr. Chairman. I appreciate this 
opportunity for us to have this discussion.
    I love the fact that the U.S. has always had the most 
innovative and the strongest auto industry in the world. We 
should continue to support and grow our auto industry as 
autonomous vehicles because part of our present and our future.
    I believe that we can continue to lead by solving issues, 
for example, of cybersecurity and privacy and by making sure 
that autonomous vehicles designed here are used--here and 
around the world are the best when it comes to safety today and 
tomorrow and forever.
    That is why we need proper laws and regulations, not to get 
in the way of American innovation but to hold ourselves to the 
standard that we have always strived to adhere to and that we 
have done, that is, admired American products around the world.
    We should give our agencies the tools to enforce smart and 
targeted improvement. I am concerned that some of the language 
in this draft legislation, specifically the MEMO Act, hurts our 
ability to make sure customer information is protected by 
limiting NHTSA in one area and FTC to another.
    This could prevent us from helping to make sure that cars 
are not hacked and customer information is protected when we 
could just allow NHTSA and the FTC to make the determination of 
who will take on what in the course of their work, and this is 
something that we certainly don't want to make the mistake of 
making sure we have two departments pointing at each other and 
say, ``Well, that is not exactly my jurisdiction. Somebody else 
should take care of it.'' The problem would be when no one 
addresses those issues.
    Mr. Wallace, what consumer data could automated vehicles 
potentially collect?
    Mr. Wallace. These cars, it would be an understatement to 
call them computers on wheels. They are incredibly complex.
    They have hundreds of millions of lines of code in them, 
and that goes for highly automated vehicles that are coming 
down the pike as well as vehicles already on the road today.
    So the type of data that they can contain and collect is 
what you might see collected on the computer.
    But then in addition to that, where you go and other things 
that are directly related to driving. Now, I completely 
identify and agree with what you were saying about the two 
agencies, FTC and NHTSA.
    These two agencies have different authority and expertise. 
The FTC is charged with protecting consumers from unfair or 
deceptive acts or practices.
    NHTSA is charged with protecting auto safety. These two 
agencies should work together. In fact, we were calling for 
them to be granted the authority to write joint standards.
    But what shouldn't be done is to inhibit their work by 
drawing boundaries that could constrain the authority that they 
currently have.
    Mr. Cardenas. Is there a potential that third party 
companies could want to buy this information from a car 
manufacturer?
    Mr. Wallace. Yes.
    Mr. Cardenas. So if that is the case, wouldn't it help to 
make sure where those bright lines are about how that 
information can or can't be transposed from one company to 
another?
    Mr. Wallace. Absolutely, and that is why we are calling for 
joint standards to make sure that consumers know where their 
data is going, know who's collecting it, and also that they can 
trust that companies are having to abide by a legal standard.
    Mr. Cardenas. Mr. Wallace, is there any recommendation you 
would have for the current legislation before us in order to 
hold our manufacturers to a strong customer privacy standard?
    Mr. Wallace. Yes, we support strong joint standards written 
by NHTSA and FTC jointly and we recommend that the committee 
grants APA rulemaking authority for those two agencies to write 
standards together.
    Mr. Cardenas. Well, I sit on another subcommittee where we 
have the FCC before us quite a bit, and it appears that, when 
it comes to customer privacy and things of that nature, FCC 
seems to be much more accustomed to dealing with privacy 
issues, unlike FTC and NHTSA.
    So the fact that we have two hopefully able and willing 
departments willing to tackle this responsibility of the future 
of autonomous vehicles, I think it is important that we not 
make the mistake as legislators to leave gaps that could 
perhaps take years for us to finally say oops, we should have 
closed that the first time.
    I would love to see this legislation move forward with 
those gaps closed but as of right now, unfortunately, I think 
that where there are gaps and there are finger pointing, what 
happens is we tend to have a lot of mistakes before we correct 
them.
    So with that, I am out of time. So thank you very much, Mr. 
Chairman, for holding this hearing, and I yield back.
    Mr. Latta. Thank you very much. The gentleman yields back.
    The Chair now recognizes the gentleman from New Jersey for 
5 minutes.
    Mr. Lance. Thank you, Mr. Chairman, and good morning to the 
panel.
    This committee has a long history regarding auto safety and 
we have taken the lead in pushing both industry and NHTSA to 
increase recall efficiency both on the supply and the consumer 
side.
    Mr. Strickland, how do you see self-driving automobiles 
affecting the rate of recall completion?
    Mr. Strickland. Well, it depends on the situation in terms 
of how this market evolves and how this technology evolves.
    The one thing that I think a number of stakeholders and 
technologists have talked about is that when a level 4 or level 
5 vehicle can actually be notified of its need to be coming up 
for a recall or repair, it can actually maybe flip the repair 
model as opposed to having for a consumer driving the car to 
the dealership to get the recall repair exacted.
    The car could drive itself. In off hours, it can exact that 
recall opportunity and get fixed and be back at home before the 
consumer needs it.
    So, frankly, the technology probably has an opportunity to 
improve recall remedy rates.
    Mr. Lance. Others on the panel, do you have views on this? 
Mr. Bozzella or Mr. Bainwol.
    Mr. Morrison. I just note that the correlation in terms of 
recall fix is very strong and as the newer the car the more 
likely the individual is to get it fixed, and the closer the 
relationship also to the dealer. Those are the two factors--new 
car and dealer relationship.
    So, obviously, at the advent of the introduction of these 
the cars will be new and they'll work and because, as David 
suggested, it is a self-driving car, from a time standpoint it 
will be easy to accommodate.
    Mr. Lance. Thank you.
    Mr. Bozzella.
    Mr. Bozzella. Yes, I would agree with Mr. Strickland and 
Mr. Bainwol.
    Mr. Lance. Thank you.
    I apologize for the redundancy, but I feel the statistic 
warrants repeating that over 35,000 people died and nearly 2.5 
million more were injured in automobile accidents in 2015.
    This is a very sobering figure, and approximately 95 
percent of crashes are caused by human error and I am 
encouraged by your technology.
    Mr. Bozzella, I have seen some reports that claim self-
driving cars could free up 50 minutes a day on average for 
drivers.
    This is important in New Jersey, the most densely populated 
State in the Nation, where many of our residents are stuck in 
traffic on a daily basis during the work week.
    Do you have figures as to how you think this might affect 
the average commute for a constituent of mine in New Jersey?
    Mr. Bozzella. I would like to be able to get back to you 
with a full set of figures. But I think that the general notion 
is absolutely correct, and I think what we should be thinking 
about is not only the driverless car--the highly automated 
level 4, level 5 car of the future--but also the congestion 
benefits of level 3 cars and also which are safer, because 
congestion is often related to crashes, but also the idea of 
vehicle-to-vehicle communications which will allow vehicles to 
travel more closely together very, very safely.
    So I think the combination of technologies across the 
spectrum of vehicles can reduce congestion significantly.
    Mr. Lance. Thank you. Others on the panel, do you have a 
view on this?
    Mr. Strickland. I align with Mr. Bozzella's comments.
    Mr. Lance. Thank you. Thank you.
    Mr. Bainwol, can you share with the subcommittee how self-
driving vehicles can provide positive effects on the 
environment perhaps in the area of emissions and pollution?
    Mr. Bainwol. Sure. Absolutely there is value. One of the 
things about crash avoidance--and self-driving is the ultimate 
in crash avoidance--is that it aligns safety and environmental 
objectives.
    It helps in several ways, cars that don't crash as often, 
because you have less congestion so you have less idling time. 
So you get from point A to point B faster.
    But the cars themselves are more efficient, and some say 5 
to 10 percent more efficient, in terms of the drive itself. No 
lead foot.
    So both for the purposes of avoiding congestion and for the 
purposes of a more efficient drive and also when you think 
about the nav benefits, the quickest route of--there are lots 
of reasons why this is environmentally positive.
    Mr. Lance. Thank you.
    Others on the panel? Yes, sir.
    Mr. Wallace. I would just note very briefly that additional 
research needs to be done to understand with greater certainty 
what the environmental impact is going to be----
    Mr. Lance. Yes.
    Mr. Wallace [continuing]. Because at this point currently 
it is not clear whether automation would lead to cars being 
more efficient or far less efficient, and in fact work done by 
the Department of Energy a couple years ago, those were the 
results. It could be less. It could be far more.
    Mr. Lance. Thank you.
    Mr. Bainwol. Actually, if I could--I have seen Energy work 
that speaks specifically to the point of environmental value. 
The question, though, really is whether there is going to be 
more VMT or less VMT. That's the question.
    Mr. Lance. Thank you.
    Well, I drive a 2004 Honda Accord stick shift with 200,005 
miles on it, and maybe the next car I will buy will be one of 
your automobiles. But it is only 13 years old, so I think it is 
middle-aged regarding the Lances.
    But I yield back. Thank you, Mr. Chairman.
    Mr. Latta. Thank you very much. The gentleman's time has 
expired.
    The Chair now recognizes the gentlelady from California for 
5 minutes.
    Ms. Matsui. Thank you very much, Mr. Chairman, for having 
this session here today. As I said earlier, I believe we all 
have the same goal here. We all want to get autonomous vehicles 
on the road so we can begin to reduce the number of deaths on 
our roadways.
    I just want to make sure that as we work on a policy 
framework that allows for the deployment of AVs we ensure that 
States retain their traditional ability to keep the roadways 
and residents safe.
    We also need to create a level playing field that allows 
all innovative companies to compete. Competition means that the 
market will ultimately decide who is able to deliver the most 
consumer-friendly AV technology.
    As we all know, as I said before, historically States have 
regulated drivers while NHTSA has regulated vehicles. But now 
the vehicle is the driver.
    There are a number of situations where this could cause 
confusion. For example, today States are able to verify owner 
insurance information with a human driver. But if there isn't a 
human driver, the vehicle itself will need to present its 
insurance information.
    Further, AV software must be designed to comply with each 
State's traffic laws.
    Lastly, in order for law enforcement to identify a vehicle 
as highly automated, States may need to require the labelling 
of automated vehicles as part of the vehicle registration 
process.
    All of these situations could overlap with the regulation 
of vehicle design and communication systems, which is preempted 
in today's legislation.
    Now, I would ask all our witnesses do you believe the draft 
legislation should provide States with a limited exception, 
allowing them to create requirements that fall within these 
precluded areas but only when necessary to perform essential 
State functions?
    And starting with Mr. Bainwol--quick answers, please.
    Mr. Bainwol. I am the nonattorney on the panel. But I think 
we should respect the traditional roles of the States and the 
feds, and to the extent those are implicated they should be 
protected.
    Mr. Morrison. Two answers. One is it is not the traditional 
versus the nontraditional so much as the areas where NHTSA is 
not regulating versus the areas where NHTSA is regulating.
    Ms. Matsui. Exactly.
    Mr. Morrison. Second, I want to raise a point on this 
preemption. What about localities? Should a locality have any 
authority to say that testing of vehicles or even deployment of 
these vehicles under an exemption cannot be permitted in the 
streets of our town or can only be permitted away from the 
schools or at certain hours of the day.
    It is very unclear. The preemption provision in LEAD'R 
talks about traffic laws, and I would call that a traffic law. 
I am not sure that the industry would call it a traffic law but 
it is an important question which you would want to talk to 
your constituents about whether you should have some say in 
these vehicles coming and when they're coming and going.
    Ms. Matsui. I understand, and I would like to hear from the 
rest.
    Mr. Strickland.
    Mr. Strickland. Thank you, Ms. Matsui.
    I think, frankly, that directionally speaking, the LEAD'R 
Act is taking the right approach and making sure traditional 
roles are maintained.
    I think there needs to further discussions about those gap 
areas that Mr. Morrison is talking about. But I do think 
directionally speaking the LEAD'R Act is taking the right 
approach and we are looking forward to having further 
conversations.
    Ms. Matsui. Well, I am asking for limited exceptions here. 
Are you in favor of that?
    Mr. Strickland. I think the question is ultimately the 
situation and the time in terms of what you're looking for. I 
think specifically speaking I think, frankly, industry looks 
for regulatory certainty and I think a broader approach to make 
sure we don't have a patchwork assurances in terms of speed 
but, clearly, we can certainly understand situations where 
there may be conversations about particular areas where there 
is a vacuum.
    Ms. Matsui. Absolutely.
    Mr. Wallace. To answer your question, I would say yes and I 
would also say that States should be able to take action to 
protect their citizens where they're not already protected.
    Mr. Day. Thank you for the question.
    I believe that the legislation as prepared and written and 
proposed is sufficient at this point in time. I think it is 
evolving, and it is something that we should continue to 
monitor and work on.
    Mr. Bozzella. I think we need to strike the right balance 
between the existing Federal requirements to determine what a 
national vehicle market looks like and design and performance 
standards while maintaining the States' traditional roles.
    I think that is important. I think the legislation does 
strike the right balance, and we'd be open to a conversation to 
learn more about your concerns.
    Ms. Matsui. And my concerns are, I think, concerns of the 
public, too, and so I think it is important to address them and 
not be put in a box here because I think we really need to have 
these discussions and I truly believe this is really the 
beginning of the process, and I think it is really very 
important.
    I am now running out of time, but I want to ask another 
question here. Tech companies in California have been leaders 
in the push to develop AVs. It is important that they are able 
to test their technologies in a responsible manner, whether on 
their own or in partnership with traditional automakers.
    Now, the MORE Act is intended to open up testing to more 
innovators in the AV space. Mr. Strickland and Mr. Day, do you 
believe the text of the bill adequately allows tech companies 
to test?
    Mr. Strickland. I think there needs to be--frankly, I think 
we have an opportunity to think about decreasing discrimination 
between the tech companies and the OEMs, and I always want to 
sort of use, in a quick example, Uber and Lyft.
    Just a few years ago, those were fairly small companies 
that had limited impact. They deliver millions of rides a day. 
So you can't necessarily think about what is a small new entry 
versus what is an evolved company and making sure that we 
have--once again, the right balance is very important in terms 
of making sure that we have equity and competition.
    Ms. Matsui. Thank you.
    Mr. Day, quickly. I am over time now.
    Mr. Day. I agree, and I think when you look at the 
rideshare programs like Lyft and Uber, that will be one of the 
first ways that we are going to be able to test this 
technology, and I think that will be sufficient as it is 
related to the MORE Act.
    Ms. Matsui. OK. Thank you very much.
    Mr. Latta. Thank you very much. The gentlelady's time has 
expired.
    The Chair now recognizes the gentleman from Kentucky for 5 
minutes.
    Mr. Guthrie. Thank you, Mr. Chairman, for yielding and Mr. 
Strickland just said the right balance. I think a lot of things 
that we are looking for how do we get to the right balance.
    My questions are going to be on the exemptions. In your 
testimony you mentioned the numerical and temporal limitations 
on exemptions under current law.
    So kind of a complex question here, I guess. But one, I 
know you talked about it in your testimony but if you could 
further explain how the exemptions strike the right balance 
between one's safety and innovation, so we want to make sure 
that you have the right balance for safety.
    Second, can you explain why the limitations, once that they 
are safe, why the limitations present concrete obstacles to the 
development of deployment of self-driving cars and how will 
increasing the number help move that deployment forward?
    Mr. Strickland. Yes, sir. The National Highway Traffic 
Safety Administration makes its decisions based upon data--
whether or not they are going to take a rulemaking posture, 
whether they're going to think about creating a change to the 
new car assessment program and once again acknowledging 
Administrator Claybrook's fine work--program began under her 
time--all those things need data. The only way you get data, 
frankly, is deployment and usage, and that generates those 
necessary components.
    So the smaller, more limited the opportunity we have to 
test and deploy these technologies, making sure that once again 
within they prove equivalent safely or overall safety to the 
vehicle, which is already stated in law, so we are not 
sacrificing safety but generating the data where needed to make 
wise decisions about this technology in the future.
    And the reason why it is a concrete obstacle now limited to 
2,500 vehicles over a 2-year period there is no way you're 
going to be able to generate the type of data information 
needed for, frankly, the companies to be able to innovate 
thoughtfully and, frankly, the agency to learn about those 
technologies.
    Mr. Guthrie. So increasing the exemptions can be done in a 
way that balance and strike with, say, on balance and safety?
    Mr. Strickland. Absolutely. Absolutely.
    I don't think there is anyone on this panel that works with 
the manufacturing community or the tech community who is going 
to sacrifice safety and NHTSA has the authority under current 
law to make sure that those exceptions are thoughtfully applied 
for, thoughtfully and conservatively granted and making sure it 
generates data without sacrificing the safety of the driving 
public.
    Mr. Guthrie. Thank you. Thank you for that answer.
    Mr. Day, could you please explain how the current 
regulatory structure at NHTSA presents obstacles to the self-
driving car industry that may result in America falling behind 
other nations with respect to the development of this 
technology?
    Mr. Day. You know, as I said in my comments earlier, there 
is a significant reason for concern and I think when you're 
looking at--for example, in the State of California the DMV 
recently issued 34 permits for autonomous vehicle tester 
program and of those 34, 12 are from foreign countries.
    And so I think this is a, you know, another issue where we 
are looking at potentially 50 different State regulations that 
apply to this and causing further delay and the longer that we, 
you know, prolong this effort it is going to cause more concern 
globally and the competition is real.
    Mr. Guthrie. Anybody else want to comment on that, that 
question of the current regulation at NHTSA?
    If not, then I will yield back my--so those are my two 
questions I prepared. I yield back my time.
    Mr. Latta. Well, thank you very much. The gentleman yields 
it back.
    The Chair now recognizes the gentleman from New Jersey, the 
ranking member of the full committee, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman.
    I have heard concerns that this legislation as written 
would prevent States from regulating autonomous vehicle safety 
without a guarantee that NHTSA would step in.
    In Mr. Day's testimony, he pointed out that Americans 
strongly prefer a Federal standard when it comes to laws 
governing autonomous vehicles, but in this current package of 
bills there is no standard and there are no governing laws.
    So I wanted to ask Mr. Wallace initially what are the risks 
to consumers if States are preempted from regulating AV safety 
and NHTSA does not take action to fill that vacuum?
    Mr. Day. Sure. Right now, there are no NHTSA regulations on 
the books protecting consumers from cybersecurity risks when 
they hit their vehicles.
    There aren't any standards on the books regarding cars that 
may lead consumers to lose attention in the driving task and, 
two, there aren't any standards in place to make sure that the 
car ensures that they stay plugged in.
    There aren't any standards in place to make sure that 
companies, manufacturers, suppliers, others, submit enough date 
for NHTSA to be able to assess whether a brand-new technology 
is safe on the road or not, and all of these are of great 
concern and, as long as those standards aren't in place at the 
Federal level, we think States should still have the 
opportunity to act on behalf of their citizens.
    Mr. Pallone. And then, Mr. Morrison, in your written 
testimony you said that you don't know of any laws where 
Congress has preempted States from acting on an issue where no 
Federal agencies have taken action. Is that correct?
    Mr. Morrison. That is correct.
    In my view, it raises serious constitutional questions. The 
supremacy clause of the constitution says Federal law shall be 
supreme. If there is no applicable Federal law, how can it be 
supreme, and that is the question we will have to answer.
    Hopefully, we won't get to that point--that the Federal 
Government will step in and issue standards. May I say--a 
followup to what Mr. Wallace just said--I think it is important 
to understand, in the past when safety innovations have been 
introduced, they haven't fundamentally changed the experience 
of the driver and the car.
    We haven't had to qualify drivers the way we would have to 
now. I would be frightened to death if I got into one of these 
cars and just went off on my own.
    But if start allowing the deployment phase with no 
regulation of the vehicle and no required testing of the driver 
to see that she or he is capable of driving these vehicles, I 
am afraid that whatever the safety standards are trying to be 
built in by the industry we are going to have a lot of problems 
on the highway, particularly because, as the gentleman pointed 
out a few moments ago, he has a vehicle that is 13 years old.
    It will be a long time before we have autonomous vehicles 
that comprise the whole fleet, and meanwhile we'll be having a 
mixed fleet of vehicles, some of which will be autonomous and 
some the kind of cars that we are all driving now.
    So before we get to the deployment stage when we are 
starting to allow individuals who are not specially trained to 
operate these vehicles I think we have to be very, very careful 
and the real dangers of both injuring people but also injuring 
the program in the long run by undermining consumer confidence.
     Mr. Pallone. Thank you.
    Now, we know the Trump administration has not appointed a 
NHTSA administrator or an acting administrator. The agency 
doesn't even have an employee who could testify today on major 
legislation that directly affects it.
    So let me ask Mr. Wallace in the time remaining, are you 
concerned that NHTSA may not have the resources or inclination 
to develop a Federal standard on AVs without direction from 
Congress?
    Mr. Wallace. History, including very recent history, has 
shown that NHTSA is most likely to take action when Congress 
tells it to do so and so I think that Congress should recognize 
that and recognize that, if there are actions that the agency 
needs to take, especially if they pertain to safety standards, 
it is going to need to ask NHTSA to do it. It is going to need 
NHTSA to take that action.
    Mr. Pallone. All right. Let me ask you two things at once 
because you only got 40 seconds. Why is it so important that 
NHTSA take an active role on autonomous vehicle regulation 
going forward and what action should NHTSA take next to ensure 
safe deployment of autonomous vehicles? That's for--I guess, 
for Mr. Wallace again.
    Mr. Morrison. I think the first thing it should do----
    Mr. Pallone. Would you rather answer?
    Mr. Morrison [continuing]. It should undertake a commitment 
to start down the process of starting to develop Federal 
standards. If it doesn't start that process it is never going 
to finish it.
    It has a serious resource problem, and I would point out 
that the resource problem is going to be intensified if these 
exemptions are all being given.
    After all, as several of the witnesses have pointed to 
today, these vehicles are not one size fits all and therefore 
NHTSA will have to carefully examine each application and I 
don't think it has the resources to do that now and it is going 
to be under tremendous pressure to let these cars go on the 
road and be deployed and I am very worried about that for the 
driving public.
    Mr. Wallace. And very briefly, just to add to what I said, 
if Congress asks NHTSA to take on new responsibilities or to do 
new tasks, like I said, this is a chronically underfunded, 
underresourced agency.
    Congress should include funding for the agency if it asks 
the agency to take on new matters.
    Mr. Pallone. Thank you. Thank you, Mr. Chairman.
    Mr. Latta. Thank you very much.
    The Chair now recognizes the gentleman from West Virginia 
for 5 minutes.
     Mr. McKinley. Thank you. Thank you, Mr. Chairman, and this 
has been one of the more interesting panels. This is probably 
the fourth or fifth panels that we've had on this subject and 
it is one of the two engineers in Congress.
    It is a fascinating dialogue about all of this. In fact, we 
are going to have a conference this fall back in the district 
over this subject because we want to explore this further.
    But I do have some issues or concerns that perhaps go 
beyond this legislation because I have all the confidence that 
we will develop a bipartisan approach that will develop this. 
But I am looking at maybe from 30,000 feet perhaps on 
something.
    Mr. Bainwol, maybe it goes back to you. One of your charts 
that you put up showed that there was an increase in accidents 
or deaths in the last few years. Can you just give me a real 
short version of what's caused that uptick in numbers?
    Mr. Bainwol. So there has been a tick-up and it is beyond 
VMT. We have looked at it preliminarily and we can't give you a 
totally conclusive explanation but there are a number of 
factors that are clear.
    One is distraction. We think it is about 10 percent of the 
challenge. It is also older drivers and older cars. There's an 
enormous correlation between the age of the car----
    Mr. McKinley. OK. If I could jump in on that, because that 
is really where I wanted to go is if we have available 
technology right now to address some of that with seatbelt 
legislation, possibly glare-proof windshields, breathalyzers 
that we can use, why aren't--why isn't the--why aren't the 
manufacturers using that as the first step instead of taking 
this giant leap over into self, you know, automated cars?
    Mr. Bainwol. Well----
    Mr. McKinley. Is it the cost? Because, when I talk to the 
auto dealers, that is what they tell me. People can't afford 
all of these provisions.
    Mr. Bainwol. There are a range of factors. One is cost. The 
price of a vehicle has gone up fairly dramatically and much of 
that is related to compliance and it is becoming increasingly 
difficult to afford. So that is a part of it.
    But there is also the question of what the end result of 
the investment is, and in my oral I showed that pyramid and the 
existing challenge that relates to the car is 1 percent. 
Ninety-nine percent has nothing to do with the car. With self-
driving you can deal with the totality of the problem, and so 
the prize there is critical.
    Mr. McKinley. And given, again, the time frame here--we 
have this constraint on it--so we talked a little bit about 
costs, and we haven't as a board or as a panel here, we haven't 
really gotten into that other than I have asked that in the 
previous groups about what is the cost, and everyone says they 
will get back to me and I am going to say three months later no 
one has gotten back to me, because what I was raising the 
question was, this has to increase the cost to a household, and 
for a family in Connecticut or Maryland that has a $70,000 
annual house--that is their average in Maryland. But in 
Mississippi it is barely $37,000.
    How are people supposed to afford newer cars, especially 
when you also looked at one of your charts that you talked 
about--the older the car, the more liable there is going to be 
a problem with it.
    So how are we going to do this? Do you think the 
automobile's business plan, their strategy here--maybe called 
your business case--is assuming that ultimately we are going to 
go to some kind of subsidy or tax credits for consumers to be 
able to have an automobile?
    Mr. Bainwol. That is not part of any strategy. The----
    Mr. McKinley. Do you think that could ultimately lead to 
this? Because, if they're going to increase costs of the cars, 
how are they going to be able to do that or maintain them, 
keeping in mind that many States across the country don't even 
have automobile inspections.
    Now we are going to put this very sophisticated car on the 
highway without any inspection of that car.
    Mr. Bainwol. The early phase of adoption will be through 
services like Uber and Lyft and Chariot and Maven, and because 
of that the costs to the consumer will actually be lower than 
today's use of the vehicle.
    Down the road, as the technology matures, the price point 
will drop. So the blend of access versus ownership models will 
evolve. But the first experience, as I think Tim alluded to, 
will be through the ridesharing application, and there the cost 
will be low.
    Mr. McKinley. So, just for the record, you don't think that 
the automobile industry is ever going to ask for some subsidy 
or tax credit so that new buyers will be able to acquire an 
automobile with this kind of automation with it?
    Mr. Bainwol. I have never been part of conversation where 
the concept has been broached.
    Mr. McKinley. All right. Well, I am curious about it 
because there is a reason that there are older cars on the 
highway--that people can't afford them--and now we are going to 
impose this new standard.
    Again, I am fascinated with it. I think it is where we are 
going to be. But I am still hung up a little bit on how we get 
to there from a macro view. And we will take care of the 
regulations on that but how is it going to affect our economy 
let alone, as Schakowsky mentioned earlier, 4.1 million people 
losing their jobs that are drivers. I am really curious about 
the big scheme.
    Thank you very much. I yield back.
    Mr. Latta. Thank you very much. The gentleman's time is 
expired, and the Chair now recognizes the gentleman from 
Vermont for 5 minutes.
    Mr. Welch. Thank you, Mr. Chairman. Thank you for calling 
this hearing and I want to thank the witnesses for great 
testimony.
    There, I think, is a universal agreement that we'd like to 
have our car manufacturers be the first. We are in agreement 
that we want safety to not be compromised.
    The background here, though, where I think, ultimately, 
when we put pen to paper there is a difference, is putting any 
confidence in an organization--governmental entity--that has 
some responsibility to say the car is good to go, because there 
is an apprehension among many that, where you have a regulatory 
agency, it is going to delay the deployment and it is going to 
increase the cost. That's the divide here.
    But bottom line, at a certain point if these are going to 
be deployed some entity has to decide yes, it is good to go. So 
I just want to ask, Mr. Bainwol, who would be the decider that 
the fleet is ready to go on the road?
    Mr. Bainwol. Well, it is NHTSA. I mean, the exemptions will 
not be enforced unless NHTSA makes the decision to approve 
them. And I just want to make a point on that.
    Mr. Welch. OK. All right. So, you know, I will let you get 
to that. But the bottom line, what you're saying is this public 
organization is the one that has the final say this car goes on 
the road?
    Mr. Bainwol. It is the safety organization, and I do want 
to make a point that has been lost in the last few minutes--
that is that NHTSA has broad enforcement and defect authority 
that applies not just when there is a standard but in the 
absence of standards when it is an exemption, when it is a 
test.
    Mr. Welch. All right. So what, in your view, does NHTSA 
need in order to most effectively do the job of protecting 
public safety? Because, by the way, if we don't have this done 
right, if we go too fast, one of two things is going to happen.
    There's going to be big delays because there will be a 
reservation to act or there will be a disaster because we acted 
too toon. And if I were on the manufacturing side, the last 
thing in the world I would want is some spectacular crash that 
totally compromises public confidence that this is good 
technology.
    So what does NHTSA need in order to do its job? Because a 
lot of folks in this building think the best thing for NHTSA is 
to starve its budget.
    Mr. Bainwol. It needs its existing authority. It needs to 
be properly budgeted and that is a congressional point, and it 
needs to act when it feels it needs to.
    Mr. Welch. Would the auto industry be willing to have like 
a contribution to funding NHTSA to boost its capability to do 
this work?
    Mr. Bainwol. We could talk about it. I mean, it is not 
something we have discussed. But let me point out----
    Mr. Welch. I am sorry. We only have 5 minutes. I wish I 
could hear more, but I am limited.
    Mr. Strickland, how about you?
    Mr. Strickland. Current authority, frankly, is very broad, 
and I think it is very effective in this case. Also remember, 
Congressman, that NHTSA requires a self-certification of 
compliance to the standards.
    So for the past 50 years, basically, the automakers have to 
say that, yes, our vehicle complies with all the Federal Motor 
Vehicle Safety Standards and then NHTSA goes out and tests for 
compliance randomly.
    So your suggestion of a type of approval of where NHTSA 
sort of signs off on the fleet before it is deployed would be 
dramatic change in the law that is, frankly, unprecedented and 
actually creates new problems in and of itself. I think----
    Mr. Welch. Well, I actually don't want to create problems. 
But I want to, like you, ensure safety. So would NHTSA need 
access to more of the data?
    I mean, there is always a proprietary argument about the 
data but how can the entity that is charged with certifying 
safety act without access to that data?
    Mr. Bainwol. NHTSA has access to the data. Basically, they 
have relationships with all the manufacturers to be able to get 
confidential business information. They have information 
requests.
    There's lots of opportunities for them to get the data they 
need. That's one of the aspects of the Federal Automated 
Vehicle.
    Mr. Welch. So your view would be that, whatever NHTSA needs 
datawise, they should get in order to certify.
    Mr. Bainwol. No. There are certain things that, frankly, I 
think that NHTSA is going to have to justify why they need 
particular data points. But in terms of safety, if there is an 
issue, NHTSA has the opportunity to ask for and then be able to 
get it.
    Mr. Welch. Is your concern about proprietary information 
leaking out?
    Mr. Bainwol. NHTSA has an excellent record in protecting 
proprietary data. The issue is ultimately going to be whether 
or not there being some ways to compel proprietary and 
confidential data to be propelled outside.
    Mr. Welch. Well, I don't know how we--you know, Mr. 
Chairman, for me, I see this as a practical issue and not an 
ideological issue.
    We have got to be certain that the public feels confident 
that these self-driving vehicles are safe. We all know that. It 
has got to happen.
    So I would have less confidence if the organization we've 
assigned the responsibility to say ``OK, it is good to go'' 
didn't have the information that it wanted, and I am reassured 
by you that I am hearing that NHTSA has a good record of----
    Mr. Strickland. They have an excellent record.
    Mr. Welch. Yes. Well that is great----
    Mr. Morrison. May I point out?
    Mr. Welch [continuing]. And it is the way it should be.
    Mr. Morrison. I'd point out, Mr. Welch----
    Mr. Welch. Yes, go ahead.
    Mr. Morrison [continuing]. That the EXEMPT Act provides 
that all of the date submitted in connection with these highly 
autonomous vehicles shall be exempt from public disclosure as 
confidential business information.
    Contrary to the standard practice for years in which NHTSA 
has been able to exempt a limited amount of trade secret 
information.
    This would be a complete reversal and the public would have 
no confidence whatsoever that NHTSA was doing the right thing 
because all this information would be secret.
    Mr. Welch. Right. Yes. I only have a few more seconds. I 
guess I don't have any more seconds.
    [Laughter.]
    I will just say this. I appreciate the panel, all right, 
and I appreciate your leadership here. We want to get this 
done. Some of these practical challenges I think lend 
themselves to a quiet working group as opposed to kind of a 
contested approach.
    So I thank you, Mr. Chairman. I thank the witnesses.
    Mr. Latta. Thank you very much for the gentleman's 
discussion.
    The Chair will now recognize the gentleman from Illinois 
for 5 minutes.
    Mr. Kinzinger. Thank you, Mr. Chairman, and thank you all 
for being here and taking your time with us today. It is 
important.
    A couple of points I want to make right off the bat. Safety 
is the most important thing in all this. I think this is the 
jump to safety that we've all been looking for.
    Illinois lost 998 fatalities last year, up 8 percent from 
the prior year. Those are a thousand lives that theoretically 
could have been saved through this.
    The other big important point to remember is that this is 
happening. It is just like with cell phones. I remember in '96 
I went to Germany and as an 18-year-old and saw that they were 
texting for the first time and was awed by that, and they were 
leading the United States in cell phone technology.
    Well, we were able to grab that back and now we basically 
lead the world on that kind of stuff and this is the 
competition we are in in self-driving cars. This is a 
competition against China, against Europe.
    We all kind of want to work together, but we also want to 
be the first in leading this technology, and so I think that is 
an important point to remember, even as we think about the 
employment implications, which I think we need to do a lot of 
work to figure out how to handle that, because that is coming.
    Mr. Bozzella, Germany has enacted a law that is paving the 
way for autonomous vehicles on public roads and the U.K. is 
working on legislation as well, and I can imagine that across 
the globe nations are updating their regulations to allow 
testing and operation of autonomous vehicles on public roads.
    How do today's proposals improve the U.S. competitiveness 
and ensure that we remain the leader in this technology?
    Mr. Bozzella. Well, thank you for the question, 
Congressman, and I appreciate, first, the sense of urgency here 
in Congress and with this subcommittee, because it is really 
important.
    There is a competition taking place. It is happening all 
around the world. What you're doing here with this framework is 
you are providing a flexible and nimble opportunity to deploy 
technology while at the very same time assuring the public and 
the regulator that we are doing this in the safest possible 
manner and you are doing this in a couple ways.
    One is, you are building on the notion of safety assurance. 
This is important. The regulators already recognize that.
    Secondly, what you're doing is you are assuring safety by 
giving the preeminent safety regulator the ability to get this 
technology on the roadway only if we can assure that we are 
producing equivalent safety and you are also allowing the 
regulator to build the database so that they can update their 
rules which were, frankly, set up in the world of mechanical 
automobiles.
    That's what you are doing. It is really important we 
appreciate it.
    Mr. Kinzinger. Thank you.
    Mr. Strickland, the Safe Driving Coalition supports the 
four proposed bills to expand NHTSA's authority to permit more 
highly autonomous vehicles on public roads for testing and for 
deployment.
    In regards to the MORE Act, can you explain the benefits of 
expanding the eligible testing entities to include equipment 
manufacturers, suppliers, universities and new market entrants?
    Mr. Strickland. Frankly, you need--and you don't know where 
your next innovation is going to come and to be able to have 
the opportunity to thoughtfully test and test safely and deploy 
safely in order to generate data and, frankly, new 
opportunities for innovations to enter into the space is 
crucial.
    Level 4 and level 5 vehicles are farther away. Often, you 
talked about no driver being a part of the driving task ever 
and level 5 is in all conditions: rain, snow, sleet, et cetera.
    So you are going to need opportunities to make sure that 
you can thoughtfully test and deploy these technologies and a 
broad way to collect data which benefits both the agency, 
NHTSA, and benefits, frankly, all the innovators and 
manufacturers.
    Mr. Kinzinger. Thank you.
    I think it is important to note with all that too we can 
never foresee what technology and innovations come along or it 
wouldn't be called innovation.
    It would just be called stuff we know, and so it is 
important to set the framework for these smart ideas and, 
unfortunately, we would like to admit that the 435 of us here 
can come up with the best ideas but we can't and people out 
there can, so provide that.
    Last question for Mr. Day. In your testimony, you state 
that exemptions are critical to the industry with respect to 
self-driving cars.
    Can you explain by exemptions are critical at this stage in 
the development of these cars and do you see a benefit to 
create new exemptions specifically tailored to self-driving 
cars?
    Mr. Day. I don't think we need new exemptions, and thank 
you for the question. I appreciate your leadership on the 
committee and I look forward to discussing this issue further 
but I think exemptions are one way and I think along with 
preemption of really getting us on the right track and I think 
it is something that we need to explore.
    I think there is another, you know, way of exploring these 
issues and we should be looking at how they complement each 
other, going forward.
    Mr. Kinzinger. Well, thank you. Thank you all for being 
here, and I will make up for Mr. Welch going over by yielding 
back 26 seconds.
    Mr. Latta. OK. The gentleman yields back the balance of his 
time.
    The Chair now recognizes the gentlelady from California for 
5 minutes.
    Ms. Eshoo. Well, thank you, Mr. Chairman, and especially 
for extending legislative courtesy to me to participate in this 
subcommittee hearing, which I am not a member of, but the 
issues is of great importance to me, to my constituents and 
certainly our country. So thank you to all the witnesses and 
thank you, Mr. Chairman.
    As the member of Congress having the great privilege to 
represent Silicon Valley, I am proud to have essentially a 
front row seat in the next great revolution now in 
transportation.
    Everyone from the major domestic and foreign automakers to 
large tech companies and small start-ups are developing AV 
technologies in Silicon Valley. I have driven on Interstate 
280--I don't know how many of you have ever been on it; it is 
billed as one of the most beautiful freeways in the world--in a 
Tesla on autopilot with my heart in my throat. It was on 
autopilot mode. And I have ridden in a self-driving vehicle 
developed by a start-up in an old fire station in Menlo Park.
    In my view, consumer confidence should be the number-one 
priority of both the automakers and we, the policymakers, that 
want to speed deployment of AVs.
    Autonomous vehicles have the potential to revolutionize 
mobility, safety, urban planning and transportation around the 
world and I want to see America be the leader--the unquestioned 
leader in this.
    But if consumers don't have confidence in the technology or 
the policies and the safety regulations that govern it, I think 
that they'll be hesitant to turn over the controls to a 
computer.
    So I think a very important part of ensuring this 
confidence is passing the fully bipartisan legislation that 
will lead to evidence-based regulations by the expert agencies, 
obviously, instructed by all of you as well.
    When Congress first created the Federal Automotive Safety 
Standards in 1966, the law passed nearly unanimously and I 
think that we should draw from that and be inspired by it.
    The bills before us today represent policy by preemption 
and exemption rather than directing rulemaking to guide the 
safe deployment of this technology.
    Now, I recognize that there will be some preemption because 
traditionally the Federal Government has regulated the vehicle 
through safety and design standards while the States have 
regulated the driver through licensing and insurance.
    So we have a key role in this. But in an autonomous 
vehicle, the vehicle is the driver. So the issue of preemption 
I think by that very definition becomes more complicated.
    Today, there are, roughly, the same amount of traffic 
fatalities in the United States as in 1956, the year that 
Congress authorized the interstate highway system.
    So I think AVs have the potential to save thousands of 
lives, but consumers won't have confidence in the technology 
unless they have a sense that their safety is paramount in both 
the policy and the technology.
    So thank you again, Mr. Chairman, for extending the 
legislative courtesy to me. I want you to know that I want to 
very much be involved in helping to shape the policy. This, 
clearly, needs to be bipartisan and that in and of itself is 
going to project a message of confidence to the American people 
in this.
    And with that, I will yield back--oh, I have finished all 
of my----
    Mr. Latta. Well, our technology isn't quite working today.
    Ms. Eshoo. Did you speed it up? Did you speed it up? Was 
this on automatic pilot? Maybe it was autopilot mode.
    But at any rate, thank you very, very much.
    Mr. Latta. Well, thank you very much. Appreciate the 
lady's----
    Ms. Eshoo. An important hearing, and I look forward to 
working with you on it.
    Mr. Latta. I appreciate the lady's comments.
    The Chair now recognizes the gentlelady from California.
    Ms. Walters. Thank you, Mr. Chairman.
    Consumers' willingness to get into a self-driving car or 
feel about having their family members ride in a self-driving 
car is one of the most popular topics in news stories about 
self-driving cars.
    Consumer education seems to fit naturally with consumer 
adoption and the public's willingness to try out a new 
technology that interacts with lots of older cars on the road.
    The average lifespan of a vehicle recently increased to 11 
years on the road. In addition, we are still years away from 
the first limited commercial deployment of self-driving cars.
    Mr. Bainwol, what role do you see for industry 
communicating with their consumers about self-driving cars?
    Mr. Bainwol. We have a role and some of this is, you know, 
informally when you buy a car and have kind of a tutorial.
    The one thing I would note about consumer acceptance is, is 
there is a relationship between the number of driver assists 
that you've experienced and your attitude about self-driving?
    And so to some extent, over time, as your constituents 
experience more and more driver assists, the reaction to self-
driving transforms in a dramatic fashion. If you have had no 
experience with driver assists, your attitude is very negative. 
If you have had lots of experience with driver assists, you 
have a totally different reaction.
    Ms. Walters. Do we know enough about the cars that will be 
on the road to set parameters for the Government to begin 
educating the public about self-driving cars?
    Mr. Bainwol. Conceptually, yes.
    Ms. Walters. OK.
    Mr. Day, in your testimony, you warn against too much 
specificity with regard to Government standards. Why do you 
believe there is an inherent danger in providing for very 
specific standards for technology such as self-driving cars 
that is continually evolving?
    Mr. Day. Thank you for the question, and I think we need to 
kind of step back. I think a lot of the questioning here 
today--we are at the beginning stages of this technology, and 
while we are conceptually aware of what the technology brings 
there is still a lot of questions to be answered, hence the 
importance of the testing that we are talking about and having 
the general framework by which we should have established to go 
forward.
    And so I think, you know, part of what I am trying to do at 
C-TEC within the U.S. Chamber of Commerce is to work with our 
State and local chambers and our member companies on truly 
messaging what they know now and making people feel more 
comfortable with the technology to understand it, to appreciate 
it, and to really understand and appreciate the benefits to the 
disabled, senior citizens, et cetera, and to keep drunk drivers 
off of the road.
    Ms. Walters. OK, and then I have another question for you.
    In your testimony you mention a study conducted by Intel on 
the economic impact of self-driving cars. Can you please 
discuss what the study looked at and its results?
    Mr. Day. I do not have that in front of me but I would be 
happy to share that with your office after this hearing today.
    Ms. Walters. OK. Thank you, and I yield back the balance of 
my time.
    Mr. Latta. Thank you very much. The gentlelady yields back 
the balance of her time.
    And now the Chair recognizes the gentleman from Texas. I am 
sorry for getting the order mixed up there. But you are 
recognized for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman, and I would hope that 
clock would make sure.
    I want to thank the committee for the diligence we have 
been doing and as a member of it, but I was running back and 
forth between Energy and Healthcare. But I want to thank the 
Chair and the ranking member for this.
    I want to experience in our country with some type of self-
driving vehicles. You have Governors on certain trucks or 
certain vehicles, but this is a whole new experience, and I 
think national standards and the safety ought to be the bottom 
line on anything.
    Mr. Morrison, in your testimony you mentioned there is a 
number of proposals before NHTSA currently that would enhance 
safety of all vehicles currently on the road.
    Could you please talk about these proposals briefly, 
because I only have 5 minutes, and tell us what you think these 
proposals--why they haven't received much attention.
    Mr. Morrison. I am sorry. I can't be specific about the 
details of these proposals. I know that they are there. They 
are on the DOT's docket. I think Wallace can help you be more 
specific.
    But the principal problem has been two things--number one, 
the will of the agency to proceed, the unwillingness of the 
companies to put the kind of safety first message that they 
have had here today and, of course, finally, the question of 
resources for the agency.
    Mr. Green. Like I said, the only experience we have in 
somebody controlling the vehicle we are driving is very 
limited.
    Mr. Wallace, automated vehicle innovations gathered steam 
over the years, and you voiced concern about level 2 and 3 
vehicles that still require an occasional human intervention.
    Is there a way we can blend that together? And let me tell 
you one joke. When I was a young State legislator in the '70s, 
my wife's grandmother said, ``I don't like to drive on the 
roads where we have the older road trucks--can we build a 
separate freeway for them?''
    And I said, ``Well, the gas taxes would really be high if 
we had to do that.'' But having one lane for automated vehicles 
and maybe other lanes for those of us who may not be driving an 
automated vehicle.
    Mr. Wallace. Thank you, Congressman.
    I am not sure about different lanes, but what I can tell 
you is that given our concerns about level 2 and 3 vehicles, 
automakers and dealers will need to be very clear with 
consumers about what they can and cannot do because too often 
we have seen marketing or other types of publicity about cars 
that have driver assist technology and portraying them as self-
driving cars when they are not, and we are very concerned that 
that could lead to problems on the road.
    Mr. Green. And that is what I know the committee doesn't 
want, and that is why we are giving real good diligence to 
whatever we set up.
    Mr. Bainwol, in your testimony you mentioned the Federal 
Aid to Highway Act of 1956, which allocated $24.8 billion to 
build about 41,000 interstate highways.
    There is widespread agreement that self-driving cars will 
need well-maintained infrastructure to function including clear 
lane lines, stop lights and signage. Can you talk about what 
infrastructure investments you and your members anticipate will 
be needed to ensure that self-driving vehicle technology can 
work?
    Mr. Bainwol. So self-driving will be a product of the 
algorithms of the and the external environment, and so the 
external environment matters a ton.
    The simplest of eternal factors is the clarity of the white 
lines in the lanes. And so that is a fundamental kind of basic.
    But if you move further down the road, things like vehicle-
to-vehicle communication, vehicle-to-infrastructure 
communication, so there are a number of implications for 
infrastructure down the road.
    Mr. Green. Well, I will give an example right now and I 
think everybody is familiar with Waze in the Houston area I 
grew up there and I know how to get around traffic. Waze may 
give us one way.
    Would that automated vehicle take that, you know, from the 
computer and this is the quickest way instead of the driver 
having any input?
    Mr. Bainwol. There will be some application like Waze or 
Google Maps or some other proprietary mapping nav service that 
would dictate the route in the fastest, most efficient way.
    Mr. Green. Thank you, Mr. Chairman. Again, I thank the 
committee for their diligence.
    Mr. Latta. Thank you very much. The gentleman yields back 
the balance of his time.
    The Chair now recognizes the gentleman from Pennsylvania 
for 5 minutes.
    Mr. Costello. Thank you, Mr. Chairman.
    I want to get a couple things on the record so I will be as 
quick and, hopefully, you can be as direct as possible.
    Mr. Bozzella, buying a car can be very expensive and public 
transportation options are not available or sometimes 
inadequate in many communities.
    Do you see self-driving cars playing an important role in 
providing better, more reliable mobility options to those who 
must rely solely on public transportation?
    Mr. Bozzella. Absolutely. Yes, I do.
    Mr. Costello. All right.
    Mr. Day, in your testimony you state that self-driving cars 
will benefit American seniors. Can you please explain how this 
technology will help senior citizens remain independent?
    Mr. Day. A number of ways. You know, my parents in Ohio in 
their 80s would benefit by having--perhaps if they are not able 
to drive at some point in their future--having medicines 
delivered from or being able to pick up their own medications 
at the pharmacy.
    They are able to have a car drive them to the grocery store 
to get their groceries. I think there is a whole host of ways, 
and I think that that is one segment of our society that will 
benefit, amongst others, as we talked about here--the disabled 
community as well.
    Mr. Costello. Mr. Strickland, for some--I am picking up on 
that--access to transportation is a public health issue. Often, 
inadequate public transportation options stand in the way of 
receiving care. Do you think self-driving cars will play a role 
in solving that problem?
    Mr. Strickland. Yes. I think what Mr. Day mentioned and Mr. 
Bozzella mentioned, the opportunities for, frankly, individual 
mobility for those that are disabled, those that are seniors, 
and have the ability to get themselves to the doctor, get to 
the hospital, get to the pharmacy, I think it will be 
transformational for them.
    Mr. Costello. Mr. Bozzella, related to underserved 
communities, just explain how you view this as being 
transformational.
    Mr. Bozzella. I think there are a number of ways. One is 
that highly automated vehicles will enable a new business 
model.
    Let us call it transportation as a service, and it will 
reduce the cost of this service and I think make it much more 
affordable and accessible to underserved transportation 
populations.
    I think the other place that you will see automated 
technology provide mobility to underserved communities is, 
frankly, the ability to create more safety in rural areas by 
deploying level 2 and level 3 technologies on vehicles in rural 
areas.
    So I think there are a number of ways we are going to 
create more transportation for underserved communities.
    Mr. Costello. Avis and Waymo, Apple and Hertz, we are 
continuing to see business partnerships evolve here. Do you 
expect such business dealings to promote the introduction of 
fleet and electric self-driving cars? Whomever wants to take 
that one.
    Mr. Bozzella. I agree with that. I testified to that point 
earlier, and I think what will happen is electric vehicle 
platforms and the cost model for electric vehicles' higher 
upfront cost but lower operating costs will fit with a fleet-
first automated vehicle strategy deployed by fleets.
    Mr. Costello. Another observation I have is, you know, a 
car driving itself ultimately is going to see to it that 
everybody is going to have that technology accessible.
    But the software side of this, you know--we can just look 
at antitrust litigation within the space of certain companies 
owning certain software and whose computer systems it can get 
on.
    I see the day when it is the software piece of this and 
updates and a new type of application or a new software product 
wanting to make its way into one specific car or a fleet of 
cars.
    Share with me, if anyone has these thoughts, about how to 
shape legislative policy so that we are not walking into the 
day when we are going to be dealing with that set of issues, 
which, obviously, has been front and center in the traditional 
tech world for quite some time. Or is it just unavoidable?
    Mr. Bainwol. I think the simplest thing is to recognize 
that as NHTSA does its work it should be nonprescriptive and 
should be technology neutral. Let the marketplace work.
    Mr. Day. Let me just add on very quickly. I mean, again, we 
are at the very early stages here, and this is not the only 
time that we are going to be looking at legislation addressing 
this issue.
    I think where we are right now, the legislation and the 
proposals that we have in front of us are adequate and as we 
have the testing done and as we learn more then perhaps that 
will, you know, require us to come back and think through some 
of the issues that you mentioned.
    Mr. Bozzella. And I would just add one more comment, and it 
comes up in the--I believe it is called the MORE Act. I do 
think that you want to make sure that a number of responsible 
companies have the ability to test.
    So not only what we would consider automakers but also auto 
suppliers that are increasingly developing the software you're 
talking about, increasingly deploying the technology that you 
talked about.
    Mr. Costello. Yes. I just wonder if there is a point in 
time where this just falls outside of NHTSA's jurisdiction if 
we are dealing in purely computer intelligence issues.
    But my time has expired. Thank you for your answers. I 
yield back.
    Mr. Latta. Thank you very much. The gentleman's time has 
expired and seeing that there are no other members that are 
here to ask questions, I want to thank our panel today.
    You can tell there is a lot of discussion, a lot of 
interest in having you hear before us today. Before we do 
conclude today I would like to include the following documents 
to be submitted for the record by unanimous consent: the letter 
from the Competitive Enterprise Institute, letter from Property 
Casualty Insurers, a letter from American Car Rental 
Association, a letter from MEMA, a letter from CTA, a letter 
from Advocates for Highway and Auto Safety, a letter from 
Consumer Watchdog, a letter from SAFE, a letter from ITS 
America, a letter from NAMIC, a letter from EPIC.
    [The information appears at the conclusion of the 
hearing.]\1\
---------------------------------------------------------------------------
    \1\ The Advocates for Highway and Auto Safety letter and the 
Consumer Watchdog document have been retained in committee files and 
also are available at  https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=106182.
---------------------------------------------------------------------------
    Mr. Latta. And does the gentlelady have a----
    Ms. Schakowsky. Yes, I do. I wanted to add to the record a 
document from the Center for American Progress, a report 
entitled, ``The Impact of Vehicle Automation on Carbon 
Emissions.''
    And if I could just say a number of those submissions came 
from our side. They include important specific feedback on the 
14 bills before us and what is missing from those bills, in our 
view, and I urge my colleagues to look closely at the 
submissions from safety advocates and other interested parties.
    We will need to carefully weigh their concerns as we move 
forward, and I hope very much that this could be a bipartisan 
safety-focused legislative package.
    I yield back.
    Mr. Latta. Thank you very much, and for the two letters the 
lady submitted, without objection it will be added to the 
list.\2\
---------------------------------------------------------------------------
    \2\ The report has been retained in committee files and also is 
available at  https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=106182.
---------------------------------------------------------------------------
    Mr. Latta. Pursuant to committee rules, I remind Members 
that they have 10 business days to submit additional questions 
for the record. I ask that witnesses submit their responses 
within 10 business days from upon receipt of the questions from 
the Members.
    Without objection, the subcommittee is adjourned. Thank you 
very much.
    [Whereupon, at 12:28 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
